;-"'.   ... '-




               FINANCIAL ARRANGEMENTS
            BETWEEN PHYSICIANS AND HEALTH
                         BUSINESSES'     ARE




                                               REPORT   TO   CONGRESS




                   .. SERViCE"
                 t-'"




                        ,..I
                               L \..-.




        OFFICE OF INSPECTOR GENERAL
        OFFICE OF ANALYSIS AND INSP ECTIONS
                                                                        MAY 1989
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) is to promote the efficiency, effective­
ness, and integrity of programs in the United States Department of Health and Human Ser­
vices (HHS). It does this by developing methods to detect and prevent fraud, waste and
abuse. Created by statute in 1976, the Inspector General keeps both the Secretary and the Con­
gress fully and currently informed about programs or management problems and recommends
corrective action. The OIG performs its mission by conducting audits, investigations and in­
spections with approximately 1 200 staff sttategically located around the country.


                   OFFICE OF ANALYSIS AND !NSPECTIONS

This repon is produced by the Office of Analysis and Inspections (OAl), one of three major of­
fices within the OIG. The other two are the Office of Audit and the Office of Investigations.
The OAI conducts inspections which are typically shon-term studies designed to detennine
program effectiveness, efficiency, and vulnerability to fraud or abuse.

This repon responds to a congressional request for information on the practice of physician
ownership and self-referral contained at Section 203(c)(3) of the Medicare Catasttophic
Coverage Act of 1988.

This inspection was carried out under the direction of Barry Steeley, Chief, Health Care
Branch, Office of Analysis and Inspections. Principle panicipants in this study were the fol­
lowing people:

Office of Analysis and Inspections             Office of Audit
Mark Krushat                                   Joseph Kwiatanowski
Penny Thompson
Jack Molnar                                    Office of Investigations
Bob Katz
Natalie Coen                                   Raisa Qttem- Cesari9   w
John Traczyk

                                               Office of General Counsel
                                               Lisa Foley
Additional contributors to the study are listed in appendix E to this report.
                                                                              ' .,."€




            FINANCIAL ARRANGEMENTS

 ~r--r'A'
 C t: I     vv      'V"'
                    r-.... ~.

                    1::1'4    U n'r-I:: L I n
                CARE BUSINESSES
                                t' n I ~     viAl
                                             "'" A

                                                                1'4
                                                                      r"\ .




                                   REPORT    TO      CONGRESS




                                      RICHARD P. KUSSEROW
                                       INSPECTOR GENERAL




OAI-12- 88- 01410                                                             MAY 1989

~&&'            """"'~~-"~""         ......................................................
                                    ........,.........,...................................

                                                                                         ".
                                                                 . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .....




                                             TABLE OF CONTENTS

EXECUTIVE SUMMARY

BACKGROUND .........................................................


New Trends in Health Care Delivery ..........................................

Effects on the Health Care Market ............................................

Previous Studies Regarding Physician Ownership. . . . . 

Federal and State Activity ..................................................

AdditionalStepsContemplated...............................................
METHODOLOGY .

PurposeandObjectives.....................................................
EvaluabilityAssessment ....................................................

StudyApproach......................................................,....
FINDINGS ..............................................................


Nature and Range of Arrangements .........................................


                Many Physicians Have Invested in Health Care Businesses to Which They
                               Make Referrals ...............................................
                Many Health Care Entities are Owned by Referring. Physicians                        .............. .
                The Structure of Ownership or Investment Varies
                Investment Opponunities are Often Developed by Physicians Themselves. . . . . . .

ImpactofArrangementsonUtiIization.......... "
                Patients of Physician Laboratory Owners Received More Services. . . .. . .
                Patients of Physicians Associated with DMEs Show No Difference in Receipt
                        of Services.............................................. .....

EnforcementExperiences.........................................,........
                Enforcement of Current Federal Anti- Kickback Laws is Challenging. . . .




                       TTtil;'7!1tinn "
SUMMARY .............................................................


ExtentofAITangements ....................................................

Tmn!ll't nn
       1"'-""
ProceduralRecommendations................................................
OptionsforPolicymakers ...................................................

FunherRepons ...........................................................

                       ---       .""... .....                                                  ...



                                 EXECUTIVE SUMMARY

PURPOSE
In June 1988, Congress mandated that the Office of Inspector General (OIG), U. S. Depart-
ment of Health and Human Services (HHS), conduct a stUdy on physician ownership and com­
pensation from health care entities to which they make referrals. Section 203(c)(3) of the
Medicare Catastrophic Coverage Act (MCCA) of 1988 directed the GIG to report to Congress
by May 1, 1989 on:

            physician ownership of, or compensation from, an entity providing items or ser-
            vices to which the physician makes referrals and for which payment may be made
            under the Medicare progralU;

            the range of such arrangements and the means by which they are marketed to
            physicians;

           the potential of such ownership or compensation to influence the decision of a
           physician regarding referrals and to lead to inappropriate utilization of such items
           and services; and

            the practical difficulties involved in enforcement actions against such ownership
            and compensation arrangements that violate current anti- kickback provisions.

BACKGROUND

Physician ownership of, and compensation from, entities to which they make referrals is a
practice which has received marked attention only in the past 10 years. New trends in the way
health care is delivered in the United States have created a market and impetus for investment
      profit health care. As physicians have become investors or financial partners of health
in for-
care entities for which they also generate business through referrals, public examination of the
potential conflicts of such arrangements has increased.

In recent years, legislators have moved to strengthen Federal laws prohibiting payment for
referrals. Certain States have acted to require disclosure of financial interests to patients; the
State of Michigan has prohibited referral of patients to any entity in which the physician has a
financial interest. Additional Federal and State actions are being contemplated, including a
bill introduced recently in the 1O1st Congress, " The Ethics in Patient Referrals Act; " which
would generally prohibit physicians from referring Medicare patientS to entities in which they
hold a financial interest.

METHODOLOGY
     I:l1rv VI:
Two u-.,     U nf
                ~. hp~ 1th I"~rp nrn" ;npr ",,:o "nnn""t...rI t     ",u.u.u th...
                                                                    t"""""
                   u_-....      t" ~             ..vu""............         ......"""""031...",,...
                                                                                    1'"'" """u"'"
financial involvement with other health care entities and the nature of such arrangements.
One survey was directed at physicians; the other was directed at independent clinical
laboratories , independent physiological laboratories, and durable medical equipment suppliers.
                                     + ~                                              ;-_.- _              ;_- --------




Claims information from the Health Care Financing Administration s (HCFA) Pan B
Medicare Annual Data (BMAD) flies for 1987 was used to assess utilization patterns for
patients of physician-owners identified through our survey of health care businesses. Third
State officials, industry representatives, health care expens and a subsample of provider
respondents to our survey were interviewed or consulted.

MAJOR FINDINGS

Many Physicians Have Financial Relationships wiih Health Care Businesses to Which
They Refer Patients

           Twelve percerit of physicians who bill Medicare have ownership or investment in­
           terests in entities to which they make patient referrals.

           Referring physicians invest in a wide range of businesses, including clinical and
           physiological laboratories; durable medical equipment suppliers; home health agen­
           cies; hospitals; nursing homes; ambulatory surgical centers; and health main­
           tenance organizations.

          Eight percent of physicians billing Medicare have compensation arrangements
          with entities to which they refer patients. These arrangements include space rental
          agreements, employee arrangements, consulting agreements, and management ser­
          vices conn-acts.



Many Health Care Entities are Owned by Referring Physicians

          Nationally, at least 25 percent of independent clinical laboratories (ICLs), 27 per-
          cent of independent physiological laboratories (IPLs), and 8 percent of durable
          medical equipment suppliers (DMEs), are owned in whole or in pan by referring
          physicians.

          The prevalence of ownership or investment varies by State. In some States, such
          as Arkansas and California, a larger than average percentage of ICLs, IPLs, and
          DMEs are physician owned. In other States, such as Michigan, the percentage of
          entities which are owned by physicians is much smaller than average.

Patients of Physician Laboratory Owners Received More Services

          Patients of referring physicians who own or invest in ICLs received 45 percent
          more clinical laboratory services than all Medicare patients in general , regardless
          of place of service. They also received 34 percent more services directly from in-
          dependent clinical laboratories than all Medicare patients in general. This in­
          ~_nn4 A ...;I;_n':~-
          \..H"a,;:!,-U             ~
                        UUU,a,L1Vll VI    1;_ ;n_ 1 I_ L___.__- --_. ;--- L-- -_.                 J:'_ L--_
                                       \..11111\..a..l !i1UU! i1LU! Y ~C! v!\.;C;) U y pi1L!CHL~ U1 pH Y~l~li1H- UW IIC!::'
          cost the Medicare program $28 million nationally in 1987. This figure does not in­
          clude any costs associated with increased utilization resulting from physician
          ownership interest in entities other than independent clinical laboratories.

          Patients of physicians known to be owners or investors in IPLs use 13 percent
          more physiological testing services than all Medicare patients in general.




                                                           III
Patients of Physicians Associated with DMEs Show No Difference in Receipt of Services

           Patients of physicians known to be owners or investors in DIvIE suppliers use no
           more DME services than all Medicare patients in general. However, significant
           variation exists on a State by State basis.


PROCEDURAL RECOMMENDATIONS

Based on the results of this study, we are making recommendations that HCFA pursue the
necessary legislative and regulatory changes to: (1) require entities billing Medicare to dis­
close the names of their physician-owners and investors to the program; and (2) require claims
submitted by all entities providing services under Medicare Pan B to contain the name and
provider number of the referring physician.


OPTIONS FOR POLICYMAKERS

We have identified six options legislators and administrators may wish to pursue in order to
address the higher use of services by patients of physician-owners and investors. These in­
clude:

          Implement a post payment utilization review by carriers directed at physicians who
          own or invest in other health care entities.

          Require physicians to disclose financial interest to patients.

          Improve the enforcement of current anti- kickback authorities.

          Institute a private right of action for anti- kickback cases.

          Prohibit physicians from referring patients to cenain types of entities in which they
          have a fmancial interest.

          Prohibit physicians from referring patients to any entity in which they have a finan­
          cial interest.

                                         BACKGROUND


Physician ownership of, and compensation from , entities to which they make referrals is a
practice which has received marked attention only in the past 10 years. New ttends in the way
health care is delivered in the United States have created a market and impetus for investment
in for-profit health care. As physicians have become investors or financial panners of health
care entities for which they also generate business through referrals, public examination of the
pOtential conflicts of such arrangements has increased. The professional as well as mass
media has critically examined such arrangements. Several regional studies have been con-
ducted to detennine if such arrangements lead to over use of services by physicians in a posi-
tion to profit from medical decisions made for their patients.

In recent y~ars, legislators have moved to sttengthen Federal laws prohibiting payment for
referrals. Cenain States have acted to require disclosure of financial interests to patients; the
State of Michigan has prohibited referral of patients to any entity in which the physician has a
fmancial interest. Additional Federal and State actions are being contemplated, including a
bill inttoduced recently in the 1O1st Congress, " The Ethics in Patient Referrals Act " which
would generally prohibit physicians from referring Medicare patients to entities in which they
hold a financial interest.

New Trends in Health Care Delivery

Many expens argue that, while self-referral has always existed, investment or ownership by
physicians in other, free-standing facilities is a relatively new phenomenon that has resulted
from changes in the way health care is reimbursed and delivered. These changes include:
 (1) the shift from inpatient to outpatient settings for the delivery of care; (2) cost containment
strategies directed at physicians; and (3) the 'introduction of new technologies.

          The Shift from Inpatient to Outpatient Settings for the Delivery of Care

          Cost containment sttategies implemented by the Federal Government and other third
          party payors have caused shifts in how, where, and at what cost health care is
          delivered. One of the primary agents of change has been the prospective payment sys-
          tem (PPS) instituted by Medicare in 1983, which established reimbursement to hospi-
          tals at predetermined fixed rates. Largely as a result of FrS , many services once
          performed in hospitals are now performed in outpatient settings, creating a new nexus
          of health care delivery in non- hospital, community settings.

          Cost Containment Strategies Directed at Physicians

          A number of other changes in reimbursement policy have directly affected non- hospi-
          tal based physicians. The Deficit Reduction Act of 1984 (DEFRA) established the
          Medicare Panicipating Physician Program. Under this program, a panicipating
          physician agrees to accept Medicare assignment on all claims, in return for increased
          billing allowances and listing in a directory of physicians available to Medicare
                    ..;.~.."                                                                                                               p(;:­




           beneficiaries. The DEFRA also imposed a fee freeze for physicians from July 1984 to
           May 1986 for participating physicians and from July 1984 to December 1986 for non-
           participating physicians. In addition , a direct billing policy was implemented by
           Medicare for laboratory services, preventing physicians from billing for laboratory ser­
           vices performed in a laboratory which is independent of their offices.

           While PPS has been somewhat successful in conttoIling expenditures under Medicare
           Part A (Medicare s hospital insurance program), the physician pay freeze and other
           measures enacted to curb Part B spending (Medicare s supplementary insurance
           program) have not been as successful. Medicare Part B expenditUres have continued
           to rise despite these cost containment measures.

           Because physician services account for most of the Part B expenditUres (around 60 per-
           cent), Medicare administrators are continuing to pay attention to reimbursement
           strategies to contain costs in this area. Dr. William Roper, former Administrator of the
           Health Care Financing Administration (HCFA) which manages the Medicare program
           stated in testimony before the Subcommittee on Health, the Committee on Ways and
           Means in September 1988 that " (t)otal Medicare spending on physicians ' services is
           large and growing rapidly. " He went on to say that, since the introduction of PPS, in-
           patient hospital costs have grown at a rate of 6 percent per year while physician costs
           have grown at rate of 15 percent ! A number of different strategies, including capita­
           tion , managed care , and a resource- based relative-value scale for reimbursement of
           physician services, are being considered to attack the continued growth in outlays.

           The Introduction of New Technology

           New technology can also affect how and where health care is delivered. Magnetic
           resonance imaging (MRI) is one example. Sophisticated services once found only in
           hospital settings can now be delivered in community settings, assuming resources are
           there to purchase the necessary technology. Such technology is becoming more and
           more important to the practice of " state of the art " medicine.

Effects on the Health Care Market

The shift from inpatient to outpatient settings for the provision of care, together with reimbur­
sement policies which seek to contain outlays for physicians ' services, have created certain
market reactions which some argue have dramatically affected the rate of physician ownership
in other health care entities. For example, an incentive exists for physicians or others to create
u.UU.UVI1u..      "I1U"""" .h".
 rIrI;.~"...,, 1 .....     ....U....""..",,
                                    p.v. 'u"     "". . .""" v.."" u"..1;"......
                                            ~rI.. ".....,~,..." "...,... ,.1..        ,.1..&
                                                                               . ".....u  ;... h""",,
                                                                                               UV"p&~ ;..,,1 "......;nCTC' Ph"C';,.;"nc m,,\/
                                                                                                             """""'0'" ~ U J """"'_u,", U.- J -~
tablish laboratories in their offices.                  2  They      may     pool     resources        to establish      labs, to provide
durable medical equipment, or to set up MRI facilities to meet patient needs in the community.
At the same time, physicians may seek to protect or supplement their incomes by investing in
such facilities providing services to their patients.

In 1980, an article in                                          by Dr. Arnold S. ReIman
                                The New England Journal of Medicine 


described the rise of the " medical- industrial complex, " a new growth industry which supplies
                                                                                 ::!!




health care for profit. Dr. Reiman wrote that the key to conttol of this complex lies in the
hands of physicians, but noted that any financial associations between physicians and industry
can undermine that role. He went on to say that " (a)s the visibility and importance of the
private health care industry grows, public confidence in the medical profession will depend on
the public s perception of the doctor as an honest, disinterested trustee. That confidence is
bound to be shaken by a fmancial association between the practicing physicians and the new
medical- industrial complex.

Articles describing the practice of physician ownership and self-referral, most focusing on
limited pannerships, have appeared in the   New York Times, LA. Times, Business Week,    and
numerous smaller publications. " The CBS Evening News " discussed the practice as it affects
the laboratory industry in a segment broadcast in March 1989.

In December 1988, a series of articles on physician investment appeared in the       Christian
Science Monitor.    This series of articles described the practice of ownership and self-referral
as " one of the most divisive issues confronting American medicine today. " It reported on one
case where a private radiologist in Philadelphia had lost most of his business to a physician-
owned radiological lab that opened up a block away from him. The private radiologist com­
plained that " a few of the (doctors) just turned off the spigot " after they invested in their own
facility, not allowing him to compete; the president of the physician-owned lab argued that the
physicians ' investment allowed them to purchase new technology that the community needed.

An article inThe Wall Street Journal  entitled, " Doctor- Owned Labs Earn Lavish Profits in a
Captive Market, " appeared in March 1989. The article reponed on a case in California in
which a radiologist was threatened with the loss of referrals if he did not offer an investment
opportunity to the referring physicians. The radiologist refused, and the referring physicians
subsequently opened their own lab. The anicle also described variances in pricing between
physician-owned and non- physician owned labs.


Previous Studies Regarding Physician Ownership

Despite the increasing interest in the practice of physician ownership and self-referral , few
studies have been conducted in this area. Among those that have been conducted are a 1981
study by the State of Michigan; a 1983 Health Care Financing Administtation (HCFA) Region
V study; a May 1984 Blue Cross Blue Shield of Michigan study; and a 1988 survey by the
American Medical Association (AMA).

The 1981 study by the State of Michigan targeted Medicaid utilization of clinical laboratory
services, It found that Medic :ti d recipients referred for clinic laboratory services by
physician-owners had an average of 41 percent more testS than those referred by non-owners,
Physician-owners also referred more of their patients for tests than did non-owners.

The May 1983 HCFA Region V study did not find any appreciable difference in Medicare
utilization between what they called " practice related" laboratories and " non- practice related"
laboratories. However, patients of practice related laboratories had more batteries of tests
done, and a greater number of " miscellaneous procedure " codes billed than patients of non-
practice related laboratories.€


The May 1984 Blue Cross Blue Shield of Michigan study reviewed all laboratory procedures
billed in a single calendar quarter. Data were analyzed for 148 laboratories as well for two
subsamples of 20 laboratories each: one with known physician ownership (other than
pathologist), and the other with a known absence of physician ownership. For the physician-
owned group, the average number of services per patient and the average payment per patient
were roughly 20 percent higher than the averages for all laboratories, and roughly 40 percent
higher than the averages for the nonphysician-owned group.

In response to increasing interest in financial partnerships between physicians and other health
care businesses , the AM...A asked questions conceming fina..r1cial interests as pa..rt of its semi-
annual telephone survey of physicians in Fall 1988. As a result of these interviews, the AMA
estimated that 7 percent of physicians have an ownership interest in a health care entity to
which they refer. The AMA also reponed that an additional 3 percent of its members have
ownership interests in facilities to which they              do not   refer.

Other studies are now in progress. The General Accounting Office (GAO) began a review of
the practice of physician ownership and self-referral in June 1988. That study is currently on-
going and will repon on activity in two States, Maryland and Pennsylvania.

Federal and State Activity

Federal Anti- Kickback  Laws: In 1972 , Congress outlawed payments for referrals of busi-
ness payable under the Medicare or Medicaid programs. In 1977, Congress strengthened this
prohibition when it passed the Medicare and Medicaid Anti- Fraud and Abuse Amendments.
As amended in 1977 , the anti- kickback law provides criminal penalties for knowingly and



                                                   10
willfully soliciting, receiving, offering or paying anything of value in return for the referral of
a health care item or service payable under the Medicare or Medicaid program. Such a trans-
action is deemed fraudulent and a felony punishable by a fine of up to $25, 000 and imprison-
ment for not more than 5 years.

On its face, the anti- kickback provision is very broad, covering indirect or coven bribes, kick-
backs and rebates, as well as direct or oven ones. In 1985, the Third Circuit U. S. Coun of Ap­
peals dramatically demonstrated how broad the provision was intended to be. In United States
v. Greber,    the co un found that, " .if one  !!'ose of the payment was to induce future refer­
rals, the Medicare statute has been violated.      (Emphasis added.

Greber      is considered authoritative throughout the health care community. Its reasoning was
recently adopted by the Ninth Circuit Coun of Appeals in €                     United States   v,   Kats.   The court
found that the anti- kickback statute is violated unless the payments are " wholly and not in-
cidentally attributable to the delivery of goods and services. l3 Further, the same circuit in
United States  v. Lipkis has emphasized the imponance of determining the fair market value of
services rendered when analyzing ownership and compensation arrangements.
It is within the framework of the    Greber                   cases that physician ownership and
                                                             , Kats      and      Lipkis

compensation arrangements are frequently viewed, even though there are no reponed coun
decisions which analyze the applicability of the anti-kickback statute to specific kinds of arran-
gements. The current view of Federal authorities is that physician ownership does            in and                  not,

of itself,violate the anti-         kickback laws. At the same time,             indicate that Greber   and   Kats

returns on investment, whether or not related to volume of physician referrals, might con-
stitute a violation of the statute if such returns are intended to induce referrals. The factual set-
ting of allY particular a.rra.Tlgemenr is               critic         to tb. e   a.Tl     ysis.

In 1987, Congress passed the Medicare and Medicaid Patient and Program Protection Act.
This legislation expanded the anti- kickback sanctions by authorizing the Office of Inspector
General (GIG) to exclude from the federal health care programs anyone who violates the anti-
kickback statute.

In view of the broad language of the anti- kickback statute, as well as the coun s interpretation
of that language under Greber   (and later Kats), the Medicare and Medicaid Patient and
Program PrOtection Act of 1987 also required the Secretary of the U. S. Department of Health
and Human Services (HHS) to develop regulations clarifying what types of arran gements or
conduct would not be subject to prosecution under the anti- kickback authorities. These
 safe harbors " were specified in a Notice of Proposed Rulemaking (NPRM) published January
23, 1989.


The NPRM proposes a safe harbor for physicians with investment interests in large publicly
held corporations, but does not do so for any other types of investment or ownership arrange-
ments. Likewise, the proposed rule establishes a safe harbor for certain compensation arrange-
ments (space and equipment rentals, personnel services and management conn-acts) that meet
established criteria that limit the pOtential for abuse. Ownership or compensation arrange-
ments that fall outside these safe harbors are not exempt from prosecution under the anti- kick-
back authorities.

The only explicit Federal prohibitions which currently exist on physician own ership and self-
referral     per se      concern home intravenous (IV) drug therapy and home health agencies. The
Medicare Catasn-ophic Coverage Act of 1988 prohibits a home IV therapy provider from
providing services to a Medicare patient when such services have been ordered by a physician
with a financial interest (including financial interest held through an immediate family mem-
ber) in the provider. Some exceptions are made, such as for a sole rural provider or financial
interest in a publicly traded company. Federal regulations also prohibit physicians from cer-
tifying the home health plan of care for a beneficiary when they own more than 5 percent of
_u- hnmp.
thE", u_u_- hp.~lth - 0---- '/ whir.h
            ------- ~p'P.nr.v          wm nrnvirlp.
                               "------ "_n r- - . --- thp. r.~rp.

State Laws: While many States have anti- kickback laws similar to the Federal statute, only
Michigan directly forbids referral to an entity in which a physician has a financial interest.
Several States are " unfriendly ;; to such ventures; New York , for example, has considered nor
certifying some physician-owned laboratories. In addition , a number of States require
physicians to disclose their financial interests to patients before referral. For a more com-
prehensive discussion of State laws, see the OIG repon " Financial Arrangements between€
Physicians and Health Care Businesses: State Laws and Regulations, " issued in April 1989.€

        Laws Prohibiting Referrals to Physician-owned Facilities€

        One State directly forbids the referral of patients to entities in which the physician has€
        an ownership interest. Michigan s Public Health Code forbids " directing or requiring€
        an individual to purchase or secure a drug, device, tteatment, procedure or service€
        from another person, place , facility or business in which the licensee has a financial in-€
        terest. ,,€

        Laws Requiring Disclosure to Patients€

       Arizona, California, Delaware, Florida, Massachusetts, Minnesota, Nevada, Pennsyl-€
       vania, VIrginia, Washington , and West VIrginia specifically require disclosure of finan­

       cial interests under cenain circumstances to patients.€

       Those laws requiring disclosure of financial interest to patients vary in their strin ~ency.€
       For example, Florida' s law only applies to equity interests of 10 percent or more. 8€
       Minnesota s disclosure law applies to " significant financial interest " and stipulates that€
       the disclosure must be made " in advance and in writing to the patient and must in-€
       clude... a statement that the patient is free to choose a different health care provider. " 19€
       Both the Pennsylvania and Virginia disclosure laws apply to " any fmancial interest in€
       the facility or entity " to which the physician makes a referral and require that the€
       physician " advise the patient of his freedom of choice in the selection of a facility. ,,€


Additional Steps Contemplated€

The Congress has expressed continued concern regarding the practice of ownership and self-€
referral. The Subcommittee on Oversight and Investigations, Committee on Energy and Com-€
merce, expressed itS distress regarding the emergence of such arrangements as early as 1982.€

In February 1989, Representative Fortney (pete) Stark introduced H. R. 939, the " Ethics in€
Patient Referrals Act. " This bill generally would prohibit Medicare providers from accepting€
referrals from physicians with an ownership interest or compensation arrangement with the€
provider. The bill provides for cenain exceptions, including group practice arrangements, sole€
rural providers, and prepaid plans. The bill also authorizes the Secretary of HHS to establish€
other exceptions that he deems to have little risk of program or patient abuse. The Committee€
on Ways and Means, Subcommittee on Health, held hearings on the bill on March 2, 1989.€

Several States are also reviewing the practice. The New York State Health Commissioner€
created an ad hoc committee to meet with the public this year and gather comments on ethical€
or other concerns the public may have regarding the practice. Funher hearings are scheduled.€
The Health Care Committee of the Florida House of Representatives is currently collecting in-€
fonnation on the practice and may conduct a study on such arrangements in Florida.€
                                     METHODOLOGY

Purpose and Objectives

In June 1988, Congress mandated that the Office of Inspector General, U. S. Department of
Health and Human Services, conduct a study on physician ownership and compensation from
  :ll ttl care entities to which they make refeITals. Section 203(c)(3) of the Medicare
Catastrophic Coverage Act of 1988 directed the OIG to repon to Congress by May 1, 1989 on:

           physician ownership of, or compensation from, an entity providing items or ser-
           vices to which the physician makes referrals and for which payment may be made
           under the Medicare program;

           the range of such arrangements and the means by which they are marketed to
           physicians;

           the potential of such ownership or compensation to influence the decision of a
           physician regarding referrals and to lead to inappropriate utilization of such items
           and services; and

           the practical difficulties involved in enforcement actions against such ownership
           and compensation arrangements that violate current anti-kickback provisions.

Evaluability Assessment

Before beginning this study, the OIG investigated existing sources of information on owner-
ship or investment, and referrals by physicians. The study team assessed the feasibility
using such sources of information in addressing the issues of interest to the Congress.

Currently, no complete infonnation is held by Medicare carriers (who process Part B claims
for the program), the States, or the Federal Government regarding the ownership of entities
which are Medicare providers. Not all State Secretary of State offices maintain information
on corporations and partnerships originating in their States. Infonnation that is maintained
generally does not include a full listing of owners, partners, or investors. Boards of Medicine
do not obtain such infonnation, although we found one (West Virginia) which maintains
ownership information on all registered medical corporations which are wholly owned by
medical doctors.

Another potential source of information investigated by the GIG was HCFA Form 1513, " Dis-
closure of Ownership and Control Interest Statement " As a condition of participation, cer-
tification , licensure or recertification under the Medicare program, a health care entity (sole
proprietorship, partnership, corporation) must make disclosure of ownership and financial in-
terest on this form. One purpose of the information is to identify entities that are owned by in-
dividuals who have been convicted of a criminal or sanction able offense related to
participation in programs established by title XVIII, XIX , or XX.
In assessing whether HCFA Form 1513 could be used as a basis of information for detennin­
ing the extent of physician ownership or investment in other health care entities which are
Medicare providers, the OIG discovered several limitations to its use. First, the form does nOt
require a listing of all investors.. Instead, for the most part, only individuals having an interest
of 5 percent or more must be listed. Second, physicians are not required to be expressly iden-
tified. Thus a physician owner may be identified by his name only, without a M. D. designa­
tion. Third, maintenance of the form is uneven. Fonns have not always been completed in
the past by providers, nor have they submitted updates when new investors are added or
ownership changes hands. Lastly, the HCFA regional offices are only required to maintain€
this information for independent clinical laboratories, not all types of Medicare providers.

Other possible sources of ownership information that were subsequently researched during the
course of this study included the Offices of the State Attorney Generals; Medicaid Fraud Con­
ttol Units; local medical societies; State Public Welfare Provider Review and Sanction Of­
fices; State revenue offices; State peer review organizations; municipal offices that maintain
city or town directories; State, city, and county courthouses; State insurance commissions;
State Departments of Commerce; and Medicare provider audit groups. None of these or­
ganizations maintained infonnation on ownership of health care businesses.

At the same time, no existing infofmation is maintained by most Medicare carriers regarding
the referral activity of physicians. Claims submitted by health care entities do not generally
contain the name or provider number of the referring physician.€

As a result of this evaluability assessment, the OIG study team developed a study design that
would collect original data on ownership and other financial arrangements between
physicians and other health care entities. The OIG also developed a mechanism for assessing
utilization that was patient- based, rather than physician- based, due to the lack of specific data
on physician referrals and the availability o~ data on beneficiaries ' use of services.

Study Approach

In order to gather information in all the areas outlined in Section 203(c)(3) of MCCA , the OIG
study team collected data from the following sources. First, two surveys of health care
providers were conducted to detennine the prevalence of physician financial involvement with
other health care entities and the nature of such arrangements. Second, claims infonnation
from the Health Care Financing Administration s Part B Medicare Annual Data (BMAD) files
for 1987 was used to assess utilization patterns for patients of physician-owners identified
through our surveys. Third, State officials, industty representatives, health care experts and a
subsample of provider respondents to our survey were interviewed or consulted.

       Surveys of Health Care Providers

       The OIG study team conducted two surveys of Medicare- participating providers, using
       a two-stage random sample. During the fIrSt stage of sampling, eight Medicare car­
       riers were randomly selected, with the probability of selection proportionate to total
       amounts reimbursed under Medicare in 1986. The eight carriers selected were
Travelers of Connecticut; Empire Blue Cross Blue Shield of New York; Nationwide of
West VIrginia; Blue Shield of Florida; Blue Shield of Michigan; Blue Shield of Kansas
City; Blue Shield of Arkansas; and Occidental of California. These carriers repre-
sented approximately 30 percent of amounts reimbursed under Medicare Part B in
1986.

At the second stage of sampling, two sets of providers were selected. In the fIrSt   set,

  000 provider numbers representing physicians (500 in each carrier) were randomly
selected and surveyed regarding their ownership interests in health care businesses to
which they make referrals. In the second set, 1, 133 provider numbers representing
health care businesses (from 91 to 180 per carrier) were selected and surveyed regard-
ing their business structure, owners, pdncip ::ll pa.rties, and health care providers with
whom they have compensation arrangements. The health care businesses surveyed
were of three types: independent clinical laboratories (ICLs), independent physiologi-
callaboratories (IPLs), and durable medical equipment suppliers (DMEs). These three
classes of providers account for approximately 50 percent of Part B claims for ancil-
lary services.



High response rates were experienced with both surveys. The survey of physicians
met with a 92 percent response rate overall, including 443 mailings (11 percent) which
were undeliverable due to provider number address inaccuracies. The survey of        health
care businesses met with a 99. 9 percent response rate including 121 (11 percent) where
a response was not required because the entity had gone out of business. In total
  218 responses were made to the physician survey (2, 690 from active Medicare
providers) and 1 011 to the survey of health care entities. For further detail regarding
the response rates and technical components of the surveys, see appendix A.

BMAD claims Information

Based on information obtained from the entity survey described above, the OIG study
team developed a list of physicians known to be owners or investors in other health
care businesses. This list of physicians was matched to carrier provider number files.
Physicians with designated specialty codes indicating radiology or pathology (non-
referring specialties) were dropped from the IPL and ICL analysis, respectively, since
such physicians are not in a position to refer patients.

Using the HCFA BMAD fIle, patients who had seen referring physician-owners or in-
vestors were identified. For patients associated with physicians who have investment
or ownership interest in an ICL, use of laboratory services was compared to the use of
such services by all beneficiaries in the fIle. A similar analysis was conducted for
patients of physicians associated with IPLs and DMEs. For further detail regarding the
BMAD file and our analysis, see appen ili x B.
Interviews€

In order to collect detailed information concerning the nature of physician ownership
and compensation arrangements, a number of providers responding to our two surveys
were interviewed. Forty physician-owners identified through our physician survey
were interviewed to collect detailed information on these arrangements. Twenty- four
physician-owned entities and 23 non-physician owned entities identified through our
survey of health care businesses were also interviewed.

In addition to these interviews, we consulted with various industty groups and associa-€
tions regarding their positions on physician ownership and self-referral. These groups€
included the American Medical Association (AMA), the American College of Radiol-€
ogy (ACR), the American Society of Internal Medicine (ASIM), the College of€
American Pathologists (CAP), the American Clinical Laboratory Association (ACLA),€
and the American Imaging Association (AIA).€

We also conducted interviews with 143 State officials regarding: (1) their perspectives€
   , and experiences with, physician ownership and self-referral; and (2) the existence€
and enforcement of State laws which may prohibit self-referrals, kickbacks, or require€
disclosure of fmancial interests to patients. The officials interviewed included repre-€
sentatives from State licensing boards, Medicaid Fraud Control Units (MFCUs), State€
Attorney General offices, and title XIX offices. Finally, the OIG study team consulted€
with knowledgeable investigators and attorneys within the OIG concerning their ex-€
periences with the enforcement of Federal anti- kickback laws as they apply to abusive€
ownership or compensation arrangements.€
                           -.. .~..   ....... ....... ............. ......... ......,





                                                    FINDINGS

Nature and Range of Arrangements

Many Physicians Have Invested In Health Care Businesses to Which They Refer Patients

            Twelve percent of physicians who bill Medicare have ownership or investment in-
            ......u. ~. .. tip
            tPTPc:t   in         tn ",hi,..h th",     ...,..tr",     M",n" .- f'",.....,
                                                                                  u....... .


            Referring physicians invest in a wide range of businesses. They hold interests not
            only in independent clinical and physiological laboratories and durable medical
            equipment suppliers, which we specifically studied, but also in home health agen-
            cies, hospitals, nursing homes, ambulatory surgical centers, and health main-
            tenance organizations.

           Eight percent of physicians billing Medicare have compensation arrangements
           with entities to which they refer. These arrangements include space rental agree-
           mentS, employee arrangements, consulting agreements, and management services
           contracts.

Of the 2, 690 active Medicare providers responding to our physician survey, 322 claimed to
have an ownership interest in a health care business to which they refer patientS (other than
physician office laboratories). Projected and weighted nationally, then, 11.8 percent of
physicians billing Medicare have an ownership or investment interest in entities to which they
make referrals.

Most ownership interests are held directly by the reponing physician, although a few
physicians reponed that they held ownership interests indirectly through immediate family
members. Eight physicians, for example, iqdicated that they held an ownership interest
through a family member in diagnostic imaging centers, and five reponed such an indirect in-
terest in clinical or other physiological laboratories.

Interests are held in a wide array of businesses. Exhibit 1 illustrates the breakdown of interest
by type of business.

Two hundred and six of the active Medicare providers surveyed reponed having a compensa-
tion arrangement with an entity to which they refer. Most of these arrangements involve space
rental to or from the entity, and employee or consultant fees. Exhibit 2 indicates the type of
compensation arrangement reponed by the physicians surveyed.
.....




                                               Exhibit €

          Num, ber and Percent                      of Physicians Indicating€
                                Ownership by Type


          Laboratory (ICL and IPL)*

           Amb. Surgical Center€
          Home Health Agency€          028
                 Hospital€
              DME Supplier

              HMO or CMP

          Radiation Therapy Center€
          Diagnostic Imaging Center€                       114€

              Nursing Home€            D 6 



                 Other€
                                                                                           I--.J€
        Total Respondents: 2690
                                       Percent€                   Unweighted Results for To\ol Respondents
                                                                  Multiple Responses Per Physician Possible
                                                                  . Excludes Radiation Therapy

                                                                    and Diagnostic Imaging Centers

                             - Exhibit
   Nllmber and Percent of Physicians Indicating€
           Compensation Arrangements by Type€

 Discount Arrangement€
 Incentive Bonus Plan€
  Rental of Space€                             60€
 Equipment Rental€

     Employee€

   Consultant Fee

                                       I 39


Board of €Director   Fee



      Other€

Total R:espondents: 2690€
                            Percent€                 Un weighted Results for   Totol Respondents€
                                                     Multiple Responses Per Physicion Possible
   ;~     ......,..........,...... ....




Many Health Care Entities are Owned by Referring Physicians

                         Nationally, at least 25 percent of independent clinical laboratories, 27 percent of in-
                         dependent physiological laboratories, and 8 percent of durable medical equipment
                         suppliers, are owned in whole or in pan by referring physicians.

                         The prevalence of ownership or investment varies by State. In some States, such
                         as Arkansas and California, a larger than average percentage of ICLs, IPLs, and
                         DMEs are physician owned. In other States, such as Michigan, the percentage of
                         entities which are owned by physicians is much smaller than average.

                         One hundred ninety- five entities in our sample (17 percent) have compensation ar­
                         rangements with referring physicians. Some entities have both physician-owners
                         and compensation arrangements with other physicians.

Of the three industries we studied, the highest rate (27 percent) of physician ownership or in-
vestment is found in the independent physiological laboratory industry. The lowest rate (8 per-
cent) is in the durable medical equipment industry. These rates reflect conservative estimates,
since they reflect only physician ownership or investment which is ~oth direct and immediate.
Physicians may also hold interests through other family members. In addition, physicians
may hold interests in parent companies which in turn own other health care businesses. In
such cases the owner of the entity surveyed was reponed as another company; we did not at-
tempt to collect ownership information on the parent company. (Sixteen entities in our survey
reponed that they are owned by another company.

Exhibit 3 represents the rate of ownership, by industry, and indicates whether entity ownership
interests are held by referring physicians (such as internists), non referring physicians (such as
pathologists or radiologists), or physicians whose specialty is unknown. (Where at least one
referring physician has an ownership interest, the entity is counted as referring physician
owned. ) As the exhibit demonsttates, a significant ponion of physician ownership is ac­
counted for by referring physicians. The actual rate of referring physician ownership is
probably higher, since at least some of the physicians whose specialties are unknown can be
presumed to be referring physicians.

Exhibit 4 illustrates the extent of physician ownership or investment in each industty, by State.
As these figures illusttate, there is significant variability in the rate of referring physician
ownership according to State. The carriers with the least amount of physician ownership are
Kansas City, Michigan and New York. Differences in practice patterns in Kansas City, along
with the existence of State policies unfriendly to such ventures in Michigan and New York,
may help to explain these variances. Interestingly, laws in California and Florida which re-
'1.""'"
          ~;"f'1t'\(!111"P        nf fin",nl';",1   ;nt~~"t" tn n"'h~nt" rJn nt'\t """n.."". tt'\ ;nh;h;t ",h"";I';",n n\l'n~rch;n
                                     u.............. ...."'......,... .v"
       ...V" ..v. "1"1"""" 'v ......v" 1"U J ..........u ..... """'u"' r-'
                                                                       1""""""'"



One hundred ninety- five entities of the 1, 133 businesses surveyed (17 percent) had one or
more compensation arrangements with referring physicians. One hundred and six of the 195
entities reporting such arrangements (54 percent) were independent clinical laboratories.
Types of arrangements reponed by all types of entities included management/consulting agree­
ments, space rental to and from the entity, and personnel services.
.....    \....                                                  ~~

                             Exhibit 3


                 Percent of Entities Owned
                  By Status of Physician


                                                            Entities Owned by:
                                                                     Physician of
                                                                     Unknown Status

                                                                          Referring
                                                                     Non
                                                                rz:a Physician
        +' 30
L1I

                                                                      Referring
                                                                QQQQI Physician

        0...




                                 DME
                  Independent
                  Clinical
                                 III€
                                 Suppliers
                                             Independent€
                                             Physiological€
                  laboratories               laboratories
                             Type of Entity
......            ~ /€  //                                                      //
                                              Exhibit 4€
            Percen l Ownership by Entity Type and Carrier
                                      Referring Physicians Only
                   Independent                   DME                        Independent
                   Clinical                      Suppliers                  Physiological
                   Labs                                                     Labs

           Ark                 26%              ~9%                                               50%

            Fla                   34%                 1 0%                              16%
                                                f2j                        ~ 1€
          Mich                ~ 20%
                                                0 ~4%                                1 24%
0'\
         KC/BS                                                                          14%
                  Ej 6%                         (2j 10%                    f22 1
                              ~ 18%
                                                ~H6%                       V /       1 24%
                                                         17%
                  f'l    /M                                                     /A
          Conn                    35%                                                         42%
                                                ~ 12%
          WVa                          42%                                                  37%
                  r//                           ra1

                        10 20 30 40 50€           10 20 30 40 50              10 20 30 40 50€
                  Percent                      Percent                     Percent
                                                                   Line indicCltes weighted ClvercHJt:,
                        """-




The Structure of Ownership or Investment Varies

Of the 208 entities with known physician-owners or investors in our sample of 1, 133 health
care businesses, 145 (70 percent) are established as corporations or similar structures , 50 (24
percent) as parmerships, and 13 (6 percent) as sole proprietorships. In conn-ast , 87 percent of
the non physician owned entities are established as corporations, and only 4 percent as partner-
ships, with the remaining functioning as sole proprietorships.

Pannerships which included physicians typically have a much larger number of limited
parmers (average of 31) than partnerships between non physicians (average of 2). Few of      the
limited panners in physician pannerships were non physicians. Physician partnerships in­
volved an average of 27 physician limited panners , with one pannership composed of 122
         ~"" 1~
  " 0) '-Hut    J. '"
             U. IIl1    1-'a.J. U '"


We requested supporting documentation (such as offerings, prospectuses, anicles of incorpora­
tion and conn-acts) from the entities we sampled. While physician-owned companies are more
likely to be structured as limited pannerships than non physician owned companies, we
received few prospectuses and offerings in connection with these ventures. Of the 18 prospec­
tuses and offerings we received for physician partnerships, none established a requirement for
a specific rate of referral by investing physicians or indicated that profits are disttibuted in
direct proportion to volume of referrals made.

Offerings and prospectuses received, however, did indicate that expectations may exist on the
pan of the entity with respect to physician referrals. For example, certain offerings indicated
that the venture anticipated referrals from physician panners or that the viability of the busi­
ness depended on such referrals. Other entities noted in their materials to us that the offering
of stock or units of pannerships was made only to practicing physicians in the area. Some en­
tities in our sample are structured in such a way as to require divestiture of financial interest
by a physician upon his or her retirement from the medical profession.

Investment Opportunities are Often Identified by Physicians Themselves

Physicians reponing ownership or investment interests in health care businesses to which they
refer patients most often said that they learned of such arrangements through personal contact
with anOther associate (either a doctor, accountant, or stock broker). Only three physicians
reponed learning of an investment opportunity through contact from an investment firm. Al­
though much attention has been paid to so-called " deal-makers, " or third patties who act as
brokers for the development of arrangements betWeen physicians and other health care busi­
nesses, information collected through our physician survey did not suggest that this activity is
prevalent. However, it is unclear to what extent the " personal associates " identified by
physicians in our survey acted as agents for Other third parties in soliciting interested
physician- investors.

Information collected through the survey was borne out through interviews. Many of the
physician-owners interviewed stated that they became aware of investtnent or ownership op­
ponunities through personal contact with associates. One physician owner stated that he be-
came aware of an opponunity to invest in a lab " at a backyard barbecue at (another) doctor
house. " A large number of physician-owners stipulated that they simply saw a need in the
community, and rose to meet it

When asked whether physicians approached businesses or were sought out as investors in busi­
ness, many of those interviewed indicated that both occurred. Several respondents believed
that while businesses generally sought out physicians in the past , physicians have become in­
creasingly aware of these opportunities and now seek them OUt or create them on their own. A
consumer advocate suggested that, when such investment opponunities were new, third party
brokers or " deal-makers " generally initiated them; now, he argued, the practice is common
enough that financially astute physicians establish such deals on their own. One association
representative stated that, in some industries, physicians are demanding investment oppor­
tunities in entities to which they refer and threatening to establish their own business if such
an opponunity is not afforded them.

Impact of Arrangements on Utilization

Patients of Physician Laboratory Owners Received More Services

                  Patients of referring physicians who own or invest in ICLs received 45 percent
                  more clinical laboratory services than all Medicare patients in general, regardless
                  of place of service. They also received 34 percent more services from independent
                  clinical laboratories than all Medicare patients in general. This increased utiliza­
                  tion of clinical laboratory services by patients of physician-owners cost the
                  Medicare program $28 million in 1987. This figure does not include any costs as­
                  sociated with increased utilization resulting from physician ownership interests in
                  entities other then independent clinical laboratories.

                  Patients of physicians known to be owners or investors in IPLs received 13 percent
                  more physiological testing services than all Medicare patients in general.

                  The extent of increase in the use of services by patient associated with laboratory
                  owners or investors varies by state.

Patients of referring physicians known to be owners or investors in clinical laboratories
received, on the average, 45 percent more clinical laboratory services than all Medicare
patients in general, regardless of place. Clinkallaboratorj services may be delivered in a
variety of settings including independent clinical laboratories, physician s offices and hospital
outpatient departments. They also received 34 percent more laboratory services from clinical
laboratories than all Medicare patients in general. (See Exhibit 5. The actual effect is probab­
ly higher, since ihe control group (all parienrs) includes the comparison group (patients who
have seen physician-owners).          If the control group consisted of patients who have 
   not   seen
physician-owners, we would expect to see an even more dramatic effect.

Likewise, patients of physicians known to be owners or investors in ~hysiologicallaboratories
use 13 percent more physiological services than patients in general. (See Exhibit 6. ) Since
physicians generally billed for physiological testing services in 1987 rather than the
..-




                                                Exhibit 5


        Avera~~e                 Number. of Services Per Beneficia"
      By Physician                   Ownership Status and Place of Service
                                    Clinical Laboratory Services
                         12 .-
                                                                               All Beneficiaries

                                                                               Beneficiaries of
                   (f)                                                    IS3 Physicians
                                                                              Who Own Labs


                   "f­




                   ::J   4 ,-




                         0 ,-
                                 All Services      Services Received in
                                 Received          Independent Clinical
                                                                                     . Weighted Averoges

                                                   Lobs Only

-..)
:,)      ::-
        '+-
        (/)





                              Exhibit 6


       Average l\Jumber of Services Per Beneficiary

             By Physician Ownership Status


               Inde. pendent Physiological Services



                                                             WJ All Beneficiaries

        (f)
                                                                       Beneficiaries of

                                                                       Physicians Who
                                                                       Own Independent

                                                                       Physiological laboratories

                                      1.




                       All Services Received
   . Weighted Averages

        ":              ~"'    ""                                               ""';               ~. -.



laboratories that actually performed the tests, we were unable to extend the analysis by place
of service as we did with clinical laboratories, above.

The extent of difference in receipt of services varies by State. In two States, West Virginia
and New York , there was no difference in experiences between patients of physician-owners
of clinical laboratories and all patients in general. However, in the six remaining States there
was a statistically significant increase in the use of services by patients of physician-owners.

                                                '2f'1 T'I.....,...nt;n r",l;f

'1"\.
J.il ;) J.1\..J.     J.a! 5\,0
                            fro lU   1,.."" U1
                                     1un    n +..IV
                                                      t""""""'"
                                                                   1.. "".......... U11 tn '" hu
                                                                                        .V...      9.7   pT'   pnt AU

                                                                                                               ...... in
Michigan. Exhibits 7 and 8 illustrate the State by State results for patients associated with
physicians who are clinical and physiological laboratory owners. Again, the differences by
state may be explained by local practice patterns or State law influences. It is interesting to
note that the existence of disclosure laws in Florida and California, or the more stringent law
in Michigan, have not prevented us from seeing increased utilization in those States.

We saw a similar effect on utilization associated with the existence of compensation arrange­
ments between laboratories and physicians. Patients of physicians with compensation arrange­
ments with clinical laboratories, for example, use 32 percent more laboratory services than all
Medicare patientS in general. See appendix B for more detail.

Based on our analysis of utilization patterns for patients of physician-owners of clinical
laboratories, the difference in utilization for clinical laboratory services alone cost the
Medicare program $28 million in 1987. This figure does not include costs associated with dif­
ferences we demonstrated in utilization by patients of physician-owners in the physiological
laboratory industry, or differences in utilization by patients of physicians with other types of
financial arrangements (Le., compensation arrangements).


Patients of Physicians Associated with DMEs Show No Difference in Use of Services

                   Patients who saw physician-owners or investors in D:rvIEs received no more
                   durable medical equipment than all Medicare patients in general. However, sig­
                   nificant variation exists on a State by State basis.

Patients of physicians who are D:rvIE owners or investors do not use any more durable medical
equipment than all Medicare patients in general. In addition , we did not find any significant
differences between all D~y4'.E services fu.."1lished to Medicare beneficiaries or DME services
furnished directly by DME suppliers. However, the data showed significant State by State
variation. While in the aggregate there was no effect on the utilization of D:rvIE services,
beneficiaries of physicians in Florida who own show a statistically significant increase in
utilization while in West Virginia and Kansas City, this same group or beneficiaries show a sig-
nificant decrease in utilization of services. Exhibits 9 and 10 illustrate the results of our
analysis for D:rvIEs.€


We saw a similar effect on utilization associated with the existence of compensation arrange­
ments between DME providers and physicians. See appendix B for more detail.
 :;:.
'+-
(j)




                                        Exhibit 7
        Average Number of Services Per Beneficiary
 By Carrier and Ownership                           Status   of Billing Physician
                 Clinical Laboratory                     Services
        20 -



 (f) 15




                                                                         All Beneficiaries




                                                                         Beneficiaries of
                                                                         Physicians
                                                                         Who Own




               Ark          Flo        Mich KC/BS             Conn WVo
                                             Co rrier

                            Exhibit 8



       Average Number of Services Per Beneficiary
  By Car- rier and Ownership Status of Billing Physician

           Physiological Laboratory Services

(f)€



                                                      All Beneficiaries
If)€



                                                          ESJ€
                                                      Beneficiaries of
                                                      Physicians€
                                                      Who Own




            Ark   FIG   Mich KC/BS       Conn   WVa

                              Carrier€
-,,)                                                                  (~

                                          Exhibit 9

           Average Number of Services Per Belleficiary
        By Physician Ownership Status and Place of Service
                    Durable Medical Equipment Services
                                                                           All Beneficiaries

                                                                           Beneficiaries of
             (f)                                                           Physicians Who
                                                                           Own DME Suppliers
             2: 8
J::o.
             (f)
                         6.4        6.4         6.4     6.4

             ...0




                         All Services          Services Received in
                         Received              DME Suppliers Only      . Weighted AverOt)cs
..)     :;:.   :)


                                      Exhibit 1 0
          Average Number of Services Per Beneficiary
      lly Carrier and Ownership Status of Billing Physician
                      Durable Medical Equipment Services


                                                                    All Beneficiaries
        (f)
                                                                    Beneficiaries of
               10 -                                                 Physicians
        if)                                                         Who Own



        ..0




                       Ark   Fla   Mich KC/BS
        Conn
   WVa

                                          Co rrier

Enforcement Experiences

Enforcement of Current Federal Anti- Kickback Laws Is Challenging

           In the past two years the OIG has pursued 442 cases under the anti- kickback
           authorities which involve physician ownership or compensation arrangements.
           Most (416) were cases involving physician compensation and many (338) arose
           out of one large investigation in Philadelphia, Pennsylvania.

           Recent legislative and regulatory developments will aid the GIG in addressing
           abusive arrangements.



A number of obstacles exist which make enforcement of current anti- kickback laws , as they re-
late to physician ownership or compensation arrangements, challenging. Investigations
ownership arrangements are complex and labor- intensive. In order to convince a judge or jury
that the anti- kickback statute has been violated, certain facts can be helpful. These include,
but are not limited to:

      (1) whether the   amount of return is related to referral volume in any way;

      (2) whether   opportunities to invest are offered only to those in a position to refer busi-
          ness, or if those in a position to refer greater amounts of business are offered a
          greater investment opportunity;

      (3) whether the   investing physicians ' referrals are monitored by the entity;

      (4) whether   restrictions are placed on n-ansferability of the investment interest;

      (5) whether the   return on investment IS excessive in light of the nature of the business.
          risk; and

      (6) whether the   amounts invested reflect the capital needs of the entity, etc.

Since many of these arrangements are structured differently, such analysis requires significant
legal support.

Physician compensation cases involving payments for referrals are somewhat easier to pursue
principally because they have moved from the realm of contracts and stock options to the
much shadier realm of " deals --cash payments off- the- books, paid under a veil of secrecy, ex-
orbitant rent payments which do not reflect fair market value, or Other payments which dis-
guise their true purpose. As a result, it is easier to show that the arrangement is a sham, that
medically unnecessary services were generated to receive a payoff, and that false claims were
generated to obtain money. However, some of the same difficulties in enforcement exist with
respect to these arrangements, including legal complexities.

Such cases are also difficult to explain to a fact- fmder, unless the business arrangement clearly
specifies payment for referral. Federal prosecutors are more likely to prosecute where the
scheme has an element of corruption , the parties to the arrangement are involved in a number
of abusive practices, or there is direct cost to the Medicare program or its beneficiaries. Even
overt kickback cases are difficult to prove, where there is no " paper ttail." In these instances
the case must be developed with wires and interviews.

For these reasons, such cases have often been assigned a low priority at the Department of Jus­
tice. Instead, resources have been directed at criminal cases where hann to patients or the
Government Ca..11 be more easily demonstrated.

However, recent legislative and regulatory developments have helped pave the way for more
effective and aggressive enforcement in this area. The Medicare and Medicaid Patient and
Program Protection Act of 1987, which allowed the OIG to sanction providers who were pre­
viously subject only to cnrniila! action, obviates the need for the CIG to rely on the Depart­
ment of Justice to prosecute offenders. The " safe harbor" regulation, once promulgated as
fmal rule, will help put providers on notice that they may be subject to criminal prosecution or
civil sanctions if their business arrangements do not qualify for a safe harbor. The OIG Fraud
Alert forewarns regional investigators, Medicare carriers, health care providers and the public
as to the sttuctural and other facts the DIG deems instructive in reviewing arrangements for
potential abuse.
                                          SUMMARY

Extent of Arrangements

Our survey data reveals that financial arrangements between physicians and health care en­
tities to which they may make referrals are common. However, since the data presented repre­
sents a " snapshot in time " and no baseline data exists with which to judge it, it is impossible to
detennine if the number of fmancial arrangements between referring physicians and other
health care entities is increasing, decreasing or remains stable. Even so, we consider the
prevalence of arrangements reponed in our findings as significant.

It is imponant to note that, while much attention is given to the percentage of physicians who
are involved in such arrangements, the more relevant question for the Medicare program is the
percentage of health care providers that have financial arrangements with physicians (since it
is the health care providers, not the physicians, who are being reimbursed for these ancillary
serviCes). As the data demonstrates, the percentage of physician ownership or investment
varies by type of provider; we have seen a greater degree of physician investment in the
laboratory industries than in the DME industry. It also varies by State , with Arkansas, Califor­
nia, West VIrginia and Connecticut markets heavily weighted with physician-owners and in­
vestors. Without baseline data, we are unable to determine if this uneven distribution
represents a ttend in one direction or another.

Impact on Utilization

We have also demonsttated that patients who have been seen by physician-owners or investOrs
in the laboratory industries, or for that matter physicians with other kinds of financial arrange­
ments with laboratories, tend to use significantly more services than Medicare patients in
general. While we have demonstrated an a ssociation rather than a causality, this finding--con­
sistent with previous small-scale studies in this area-- is quite ttoubling.

While we have demonstrated a remarkable effect on utilization of services attributable to
physician ownership in the ICL and IPL industries, no such effect occurred in the DME in­
dustry. This may be due to the elasticity and consumability of laboratory services; that is, an
unlimited number of tests may be ordered for any given patient. In DME, many goods are
non-consumable; hence, one patient can at the most receive one wheelchair, not an infinite
number of wheelchairs. Cenainly the utilization effect we have seen in the laboratory in­
dustries is cause for concern to the Medicare program, especially in light of the fact that the
methodological approach supponed the most conservative finding possible.

Procedural Recommendations

Regardless of action Lhat might be taken on the options we have identified below for
policymakers, certain steps should be pursued which will make funher analysis and ongoing
monitoring of arrangements between physicians and other health care entities possible. We
are making recommendations that HCFA pursue the necessary legislative and regulatory chan-
ges to: (1) require entities billing Medicare to disclose the names of physician-owners and in­
vestors to the program; and (2) require claims submitted by all entities providing services
under Medicare Pan B to contain the name and provider number of the referring physician.

Options for Policymakers

A number of policy options exist which might serve to address the issue of higher utilization
of services by patients of referring physician-owners. A sample of these options is delineated
below. However, the choice of these options may not depend alone upon the results of this
study. For example, we have not collected quantitative data regarding the impact of physician
ownership and self-referral on competition, quality of care, or availability of services. These
dimensions of the policy issue were outside the scope of our study. However, the choice
policy options may be driven , at least in pa.rt , on a.'1 assessment of these other factors.

          Implement a focused post payment utilization review by carriers.

          Carriers now conduct post payment utilization review based on claims submitted
          under Medicare. One policy option is to implement such review directed at
          physician-owners or investors.

          This option would require several modifications to the current system of collecting
          information. First, in order to identify the targeted group, health care entities would
          have to disclose their physician-owners or investors, along with their Medicare
          provider numbers, to HCFA and the carriers. Second, the name and provider num­
          ber of the referring physician must be entered on each claim submitted by the health
          care entity. Third, provider number reform must be instituted. If physicians and
          health care entities are allowed to use more than one provider number, the difficulty
          of this review is increased. Fourth, resources must be made available in the carriers
          to cany out such a program.

          While this approach would focus the program s attention on possible abusers only,
          there are several disadvantages to this approach. If the carriers found that a
          physician-owner ordered 20 percent more tests than his non- investing peers, it is
          not clear that such a finding would lead to adjudication in favor of the program.
          Peer review might not suppon a rIDding of " relative over-use " of tests as sufficient
          justification, by itself, for sanction or exclusion. In such cases, it is difficult to
          demonstrate that the tests ordered were in fact unnecessary; the program might ex­
          perience a high reversal rate in cases before Administrative Law Judges. In addi­
          tion, such focused utilization review is timely, costly and difficult to administer at
          the carrier level. A previous study issued by the OIG found that current/ost pay­
          ment utilization review requirements are not being met by the carriers.
-"""                                                                                                        """"'"    "';,.;.,......"




Require physicians to disclose financial Interests to patients, as a condition of par­
ticipation , when making referrals to an entity In which they have an Interest.

As detailed earlier in the repon, at least eleven States currently have laws which re-
quire physicians to make some form of disclosure to patients when they refer those
patients to facilities in which they have financial interests. While we have not un­
denaken a causal study of the effect of disclosure requirements on physician or
patient decision-making, the t'NO States in our sa..-nple that do have disclosure laws--
California and Florida--experienced the same higher utilization rate among patients
of physicians owners as did other States without disclosure laws.

While this option is perhaps the least onerous of all those described in this section
it may also be the least likely to influence actual patterns of use of services.
Patients have little basis with which to judge the efficiency, quality, or even pricing
of one facility versus another. Patient choice in this environment may have little
meaning.

Improve the enforcement of current anti- kickback authorities.

With recent regulatory and legislative developments which have paved the way for
more aggressive enforcement of current anti- kickback laws, abusive arrangements
between physicians and other health care entities may be effectively addressed.
The Medicare and Medicaid Patient and Program Protection Act of 1987, the " safe
harbor " regulations, and the OIG Fraud Alen have combined to create a positive en­
vironment for enforcement Placement of additional resources at the OIG to pursue
these cases would also suppon the goal of improved enforcement.

While legal actions against arrangements that violate the current anti-kickback laws
will deal with abusive arrangements, and perhaps deter the development of other
abusive arrangements, GIG enforcement activity cannot effectively address
physicians who refer patients for more services than their peers, in absence of other
relevant facts. However, disclosure of fmancial interests by physicians to the
Medicare program, together with post payment utilization review by carriers, might
aid the OIG in targeting cases and reviewing arrangements under its current anti-
kickback authority.

Institute a private right of action for anti- kickback                        cases.


rnncrr""",        ".,.,."~.....,    ;"h 'n
                                 .. A""  ..~""...C'  ;;!....l.. ,..;C' l",;"... ",
                                             ...v......,                           h;", J. "",n l;! ...11"",7'\
       bA...,....
                  "A_     "J"n 111
                                                         ."'. ""6~"u",v" "..~...u nVLL".i uuV'"           p~~'    u.... ...~...~"'u...
to bring actions against other private parnes engaging in conduct prohibited under
current anti- kickback law. Consideration should be given to the appropriate private
remedy, given the current civil enforcement scheme which only permits program ex­
clusion. However, a private right of action would encourage self- policing among
health care providers and allow the Government an additional source of cases
brought against abusive arrangements. If enacted under the 
                                      qui tam       model of the
                          ..
False Claims Act , the private right of action would be subject to departmental con-€
tt'ol and supervision.

Prohibit physicians from referring patients to certain types of entities in which they
have a financial interest.€

This option would allow the Congress to prohibit physician referrals to certain
types of entities in which they have financial involvement. This approach has prece-
dent in the Medicare Catastt'ophic Coverage Act of 1988, which barred physician
referrals to home IV therapy providers in which they have a financial interest.
Based on our finding that patients of physician-owners in these industries use more
laboratory services that patients in general, the laboratory industries are logical tar-
gets for such restrictions. However, this option may result in certain unintended
consequences, such as a negative effect on availability of services; reduced competi-
tion; or a drive of services into the physician office laboratory market. In order to
address some of these issues, legislation might provide exceptions for sole rural
providers or others who meet -a legitimate community need in providing services.


Compliance with such legislation may be difficult to ensure. If ownership of health
care entities is not disclosed to the Medicare program, then financial involvement
by physicians might be unseen by the OIG or other enforcement officials. Potential
for " gaming " the restriction is also evident. Financial involvement might be hidden
through indirect or non- immediate interests, e. g., through family members or a hold-
ing company.

Prohibit physicians from referring patients to any entity In which they have a finan­
cial interest.€

This option ,which reflects the intent of " The Ethics in Patient Referrals Act,€
would generally prohibit physicians from referring patients to health care entities in€
which they have a financial interest. As with the previous option, legislation thus€
constructed may result in certain unintended consequences, such as a negative ef-€
fect on availability of services; reduced competition; or a drive of services into the€
physician-office laboratory market. In order to address some of these issues, legisla-€
tion might provide exceptions for sole rural providers or others who meet a
legitimate community need in providing services, as does the current bill pending€
before the Congress.€

ComDliance with such lelrislation mav be difficult to ensure. If ownership of health
care entities is not disclosed to the Medicare program, then financial involvement
by physicians might be unseen by the GIG or other enforcement officials. Potential
for " gaming " the restriction is also evident. Financial involvement might be hidden
through indirect or non- immediate interests, e. g., through family members or a hold-
Ing company.
Additional Reports

The OIG will issue several additional repons focusing on physician ownership and
                                                                                    Other and
market forces in the independent clinical laboratory, independent physiological laboratory,
durable medical equipment industries in Fall 1989. Additional analysis
                                                                          will be conducted con­
cerning the nature and extent of physician compensation
                                                          an-angements.
                               ,"                                ,"                   , "




                                                          ENDNOTES


1. Testimony of William L. Roper, M.D., before the Subcommittee on Health, Committee on
    Ways and Means, U. S. House of Representatives, September 29, 1988.

2. The OIG       has recently conducted a study on physician office laboratories (POLs).    See   Of-
    fice of Inspector General, Office of Analysis and Inspections, " Quality Assurance in
    Physician Office Laboratories, " OAI- 05- 88- 00330, March 1989.

3. Arnold S. ReIman                 The New Medical Industrial Complex, New England Journal of
    Medicine,     October 23, 1980.


4. Robert P. Hey and Barbara Bradley, " $450 billion industry spawns fraud, abuse,   Chris-
    tian Science Monitor, December 7, 1988; " MD' s investments reap controversial profits
    Christian Science Monitor December 8, 1988; " Patient care vs. physicians ' investments,
    Christian Science Monitor December 12 , 1988.

5. Michael Waldholz and Walt Bogdanich               Wann Bodies: Doctor Owned Labs Earn Lavish
    Profits in a Captive Market, The Wall Street Journal.      February 28, 1989, p. 1.

6. Medical Services Administration , State of Michigan Department of Social Services,
     Utilization of Medicaid Laboratory Services by Physicians With/Without Ownership In-
    terest in Clinical Laboratories: A Comparative Analysis of Six Selected Laboratories,
    July 9, 1981.



7. U. S. Department of Health and Human' Services, Health Care Financing Administration
    Division of Health Standards and Quality, Region V Diagnostic Clinical Laboratory Ser-
    vices in Region V " #2- 05- 2004- , May 1983.

8. Blue Cross and Blue Shield of Michigan, Medical Affairs Division, " A Comparison of
    Laboratory Utilization and Payout to Ownership, " May 9, 1984.

9. Mathematica Policy Research, AMA Socioeconomic Monitoring System Autumn Survey,
     1988.

10. 42 D.       c. Section 1320a- 7b.



11. 760 F.2d 68 (3rd Cir. 1985). A company providing holter monitor services submitted
    claims to Medicare and forwarded a portion of the reimbursement to the referring
    physician. The operator of the holter monitoring enterprise, who was also a physician,
    was prosecuted. In this defense, the physician argued that the payments he made were for
    legitimate services, e. g., for interpreting test results.

12. 760 F.2d at 69.
13. Case No. 87- 5108   (April 3, 1989). In this case, the coun upheld the conviction of an
    owner of a clinic who received payments from a medical services company, which col­
    lected blood and urine samples and forwarded them to a laboratory. The court upheld a
    jury instruction that read inter alia, It is not a defense that there might have been other
    reasons for the solicitation of a remuneration by the defendants, if you find that one of the
    material purposes for the solicitation was to obtain money for the referral of services.

14. 770 F.2d 1447 (1985). In this case, the coun examined a medical management company
    which was providing services to a physician group. This company entered into an arran­
    gement with a laboratory which returned 20 percent of its revenue obtained from the
    physician group s referrals back to the management company. The defendant alleged that
    these payments were fair compensation for " specimen collection and handling services,
    770 F.2d at 1449. The coun rejected this defense, holding: " The fair market value of
    these services was substantially less than the (amount paid), and there is no question that
    (the laboratory) was paying for referrals as well as the described services. Ibid,

15. 42 V.    C. Section 1320a- 7(b)(7).


16. Pub. L. 100- 93, Section 14.



17. Mich. Compo Laws Ann.         Section 333. 16221 (e)(iv).

18. Fla. Stat. Section 455. 25.

19. Minn. Stat. Ann.   Section 147. 091(p)(3).


20. FA. Act 66, Section 2 ,   and Va. Code Section 54- 278.

21. Prepared statement of the Subcommittee, Subcommittee on Oversight and Investigations,
     Committee on Energy and Commerce, U. S. House of Representatives, March 5, 1982.

22. Unlike  results associated with clinical laboratories, this number tested as statistically non-
    significant nationally. This is probably due to small numbers of beneficiaries in the 5 per-
    cent BMAD sample associated with physician-owners of these entities, particularly in
    Arkansas, Kansas City, and Connecticut.

                                                  and Inspections, " Medicare Caniers ' Per­
23. Office of Inspector General, Office of Analysis
    formance of Program Integrity Functions. " OAI- 04- 88- oo71O. August 1988.
                                       APPENDIX A€


METHODOLOGY

This appendix presents the details of the two surveys conducted by the Office of Inspector
General. Both surveys were conducted simultaneously and used the same basic design. The
Office of Audit developed and administered, by mail, a survey of a sample of physicians in
current practice and presumably billing the Medicare program. The Office of Analysis and In­
spections surveyed, again by mail, a sample of entities providing ancillary services to the
Medicare population. 


Design

Both surveys used a two stage cluster design to sample the desired elements. At the initial
stage, Medicare Pan B carriers were selected at random, with replacement, with probability
proponional to size. The size of a carrier was determined using the total Medicare dollar
amounts paid by each carrier in 1986 ~ Eight carriers were selected. The following table shows
the carriers selected and the probability associated with each carrier.


         Distribution of Sampled Carriers by Reimbursed Amount Source: 1986 BMAD
                                                                           Probability
               Carrier                       Reimbursed                    of Selection

               Arkansas BS                 $ 189, 533, 042.                 1.0%
               Florida BS
               $ 1,425,407, 061.00               7.4%
               Michigan BS
                $ 774 109, 935.
               BS of Kansas City
          $ 155,282, 982.
               BS of Greater NY
         $ 1, 186, 874 282.
               Occidental Ca
            $ 1, 525, 825, 170.
               Travelers CT
               $ 244 404 358.                   1.3%
               Nationwide WVa              $ 119, 594, 198.

               Total Selected            $ 5, 621,031, 028.               29.

               All Other Carriers       $13,513, 861 042.                 70.

               National Total
          $19, 134, 892,070.               100.


The second stage differed depending upon the element of interest, either physicians or entities
providing ancillary services. The second stage sampling sttategy and the results of the sam­
pling process will be discussed separately for each survey.
               .. --.----- - . -------




Office of Audit Physician Survey

For the second stage of this survey, each carrier was asked to provide a list of physician num-
bers used by the carner for billing purposes. Each number on the list was considered an ele-
ment for purposes of sampling. For each carrier, a simple random sample of 500 numbers
was selected. The name and address of the owner of each number was identified by the car-
rier and a questionnaire was sent. Follow up questionnaires were sent to those physicians for
whom a response had not been received within two weeks. Subsequent to the second mailing,
telephone calls were made to those physicians not responding to the second mailing.
It was recognized early that the physician provider numbers we were using could represent
either single physicians or groups of physicians. We were not able to distinguish between
these two occurrences in all carriers prior to mailing the survey instruments. We have con-
sidered a single physician and a physician group as essentially the same. Thus, our findings
represent the proportion of individual billing numbers identified to Medicare. This should be
kept in mind when interpreting our results. To avoid cumbersome language, we will refer to
these billing numbers as physician provider numbers.

A total of 4 024 were actually selected. Twenty-nine of these numbers were dropped prior to
mailing the questionnaires. These 29 included numbers for which no address was available or
the physician identified was under active investigation by our office. Overall, 81 percent of
the 4 024 physicians selected responded to the questionnaire. The following table gives a
breakdown of this response rate.


                     Office of Audit Physician Survey Responses by Category

Physician Numbers Selected                                     024

Inappropriate numbers or Physician under
Investigation                                                  (29)

Survey Questionnaires Mailed                                   995

Responses Outstanding€                        334 (8.4%)
Responses Returned (Undeliverable)€           443 (11.1 %)
Responses Received€                                            218 (80. 6%)

Responses Indicating No Active
Medicare Panicipation or
Tn~""..('\nr1MPlv
u.~ t'l:"~ t'.._._. ~plp('tpn Nnmhp,                           528

Active Medicare Providers                                      690

Only active Medicare providers are used in the analysis to detennine rates of ownership or
compensation. The 2, 690 represents 67. 3 percent of the questionnaires mailed and 83. 6 per-
cent of the responses received.
                    ,.,:-.
                                                        '::!            ..




Office of Analysis and Inspections Entity Survey

For this survey, a sttatified design , using simple random sampling within each sttata, was
employed. Three types of entities were studied which constituted the three strata. Inde-
pendent clinical laboratories (ICL) and durable medical equipment (DME) suppliers were
identified using data supplied by the Health Care Financing Administration s (HCFA) sample
of Part B services. A 5 percent sample of all beneficiaries receiving services is contained in
the Part B Medicare Annual Data (BMAD) files collected by HCFA. For each of the eight car­
riers selected, we generated a list of ICLs and DMEs known to have billed for services in
1987. Using these lists, ~ simple random sample of 60 provider numbers were selected.
there were less than 60 numbers, then all of the numbers were included in the sample.

A third group of entities included in this survey are known as Independent Physiological
Laboratories (IPL). These entities are independently established, non- physician providers of
physiological services (Ref: HCFA Carrier Manual). Because these entities were not required
to bill the Medicare program directly for services performed until April of 1988, the BMAD
files could not be used to generate lists for sampling. The IPL lists were therefore generated
by the carriers at our request. These lists were then used to select the 60 entities, or as many
as were available, for inclusion in the survey.

In those carriers where we had less than 60 entities of one type or more, we attempted to in-
crease the sample size of remaining group(s) of entities if possible. The sample design , as con­
structed, called for 1 440 entities. Because not all of the carriers had the designated minimum
number of subject entities, the final sample size is 1 133. Each entity selected was mailed a
survey instrument. Follow up mailings were made two weeks later and subsequent follow up
by telephone was used to insure response to the survey. Due to authority vested with the In­
spector General , subpoenas were issued, where necessary, to insure a complete follow up. The
following three tables provide a detailed br~akdown of the number of survey insttuments sent
and the responses received.

Results of Sampling

                                         Independent Clinical Laboratories

Carrier                       Number           Sample                          Lost to    Percent
                              In BMAD          Size           Responses        Followup   Response

Arkansas BS                                                                               93.
Florida BS                    141                                                         96.
Michigan BS                                                                               98.
nC" - ~TT____- ~1LY                                                                                ")01.
D.) VI .ro..i:Ul:1i:!.:I       .;:l"t"          .;:I"t"
                                                               ~ 1
                                                               oJ
                                                                                          01
                                                                                          :7 J..
BS of Greater NY              102                                                         95.
Occidental CA                 273                                                         85.
Travelers of CT                                                                           98.4%
Nationwide WVa                                                                            94.
TOTAL                         770             396            374                          94.4%

                                               Weighted Average              94.
                             Durable Medical Equipment Suppliers

Carrier                Number         Sample
                         Lost to         Percent
                       In BMAD        Size            Responses
      Followup        Response

Arkansas BS                                                                           96.4%
Florida BS             309                                                            95.
Michigan BS            141                                                            92.4%
BS arKansas City                                                                      97.
B S of Greater 
       146                                                            86.
Occidental CA          220                                                            86.
Travelers of CT                                                                       96.
Nationwide WVa                                                                        96.
TOTAL                  024            470             437                             93.

                                      Weighted Average                                95.


                             Independent Physiological Laboratories

Carrier                Number          Sample
                        Lost to         Percent
                       In Carrier      Size           Responses
      Followup        Response

Arkansas BS                                                                           75.
Florida B S
           275                                                            64.
Michigan BS
                                                                          76.
BS of Kansas City
                                                                    92.
BS of Greater NY
                                                                     77.
Occidental CA                                                                         73.
Travelers of CT                                                                       84.
Nationwide WVa                                                                        84.
TOTAL                  508             267             200                            74.

                                       Weighted Average                               81.5%

The lost to follow up category includes: (1) those entities that were found to be out af busi­
ness; and (2) those entities which we were unable to locate through efforts of our own or those
of the carrier, and were presumed out of business.


Utilization Analysis

Data collected by HCFA and the Medicare carriers does not include information to determine
completely ownership or compensation relationships that may exist among the various
providers that bill for services to beneficiaries. Nor does information exist as to the identity of
providers that have referred a beneficiary for services billed by other providers. To overcome
these difficuities and use HCFA' s BIviAD data, the entity survey described above provided the
names of any and all physicians maintaining ownership and/or compensation arrangements
with the sampled entities.
The carriers were asked to divulge all provider numbers associated with each physician iden-
tified in the entity survey. Matching these provider numbers with those numbers found in the
BMAD billing data allowed us to establish groups of beneficiaries known to have had services
from physicians with ownership or compensation arrangements. The rates for various services
in this group of beneficiaries can then be compared to the overall rates of services for all
beneficiaries.
                                       APPENDIX B€


ANALYSIS

This appendix provides the detailed tables and analysis supporting the results presented in the
body of this report. The data is reponed in sections defined by subject matter in the title.

Proportion of Physicians Reporting Ownership and/or Compensation

Tables B 1 and B2 provide detailed breakdowns by carrier of the number of physicians, or
physician groups, reporting ownership (Table Bl) and compensation arrangements (Table B2),
For L.~ese tables, those physicians not responding to the survey were assumed to reflect the
same distributions as those responding, both with respect to active participation in the
Medicare program and the proportion indicating ownership and compensation arrangements,
Thus, the number reported in the columns headed " Physicians Sampled" reflects those
physicians who either responded or we were unable to locate and whose questionnaires were
undeliverable. Physicians associated with undeliverable questionnaires were assumed to be in-
active in the Medicare program for purposes of this survey.

The weighted proportion of physicians reporting ownership or compensation arrangements is
based upon only those physicians also reporting that they actively bill the Medicare program.
Our results estimate that there are approximately 560,000 physicians registered with Medicare
carriers, of which only approximately 399, 000 actually are active in Medicare. Also, Tables
B 1 and B2 do not give mutually exclusive counts. Approximately 26 percent of the
physicians responding (un weighted percent) reported both ownership and compen sation arran-
gements.

The data reported in this survey represents responses that are self reported by the sampled
physicians or physician groups. In an attempt to verify the accuracy of the responses, two
separate approaches were taken. First, two random 10 percent sub samples of all the selected
physician provider numbers were drawn , by carrier. Given the physicians associated with
these numbers, auditors endeavored to establish any ownership or compensation arrangements
these physicians might have through independent sources. The sources used included State
and local government offices as well as Federal offices located in each region.

The fIrst subsample consisted of 402 physician provider numbers. We were able to identify
five physicians, active in the Medicare program, with ownership or compensation arrange­
ments. All five of these physicians had responded to our survey. Two of these five physicians
responded to the survey that they had no ownership or compensation arrangements with Other
entities billing the Medicare program. We did nOt establish whether these two physicians
referred patients to the entities so identified.

The second sample consisted of 400 physician provider numbers. With this sample, we found
eight physicians meeting our criteria. Seven of these physicians had responded to our survey
and again , two responded they had no ownership or compensation arrangements with entities
      ~ "'"   """"
        ""',..,...         ."""""';   "" "".........
                                      '"               ..""....         ""         ;""
                                                                             ..... ."-'-.




to which they referred patients. Again, we did not establish the actual referral practices of
these two physicians.

A second approach was to match the physician provider numbers obtained from this survey
with those collected in the survey of entities. This match found 88 physician provider num­
bers. That is, 88 of the physicians selected at random from the eight carriers to receive a
physician survey questionnaire were subsequently identified by the data collected in the sur­
vey of entities as physicians with either ownership or compensation a..TTa-Tlgements from our
sample of independent clinical laboratories, durable medical equipment suppliers or inde­
pendent physiological laboratories. Sixty- five of these 88 physicians responded to the survey
instrument. Of these 65, 14 (21 percent) indicated on the physician survey that they had no
ownership or compensation arrangements with other entities to which they referred patients.
      f'.
                could     ... .""...u~...                         J.'
                                          ,.n",l ..... f'.........1 " tt...TT1
                                                  ..""..""........... 1"


While the conclusions that can be drawn from these two methods of verification are limited, it
seems apparent that the self reponed nature of the physician survey did not lead to gross
misstatements of fact on the pan of the physicians. At worst, we may be understating the true
extent of physician financial relationships that exist. Consequently, we believe that our results
are an accurate representation of the proportion of physicians who have fInancial relationships
with other entities, to which they refer patients, and who also bill the Medicare program.

Utilization Analysis

The analysis of the effect of physician ownership and compensation arrangements on utiliza­
tion of services was conducted by defining two groups of beneficiaries. The fIrSt group was
defined as all beneficiaries in the carrier BMAD sample with at least one service of the type
under study. For independent clinical laboratories, this was all beneficiaries with at least one
service billed to Medicare using the HCFA Common Procedure Code System (HCPCS) where
the fIrSt digit of the HCPCS was an ' 8' or a     For durable medical equipment suppliers, the
fITst digit of the HCPCS was an ' E' and for independent physiological laboratories, the

HCPCS codes listed in appendix C were used. Essentially, this group constituted the control
group. The comparison group was composed of beneficiaries showing at least one service
billed as in the conttol group and also showing a billing for services received from a physician
known to have an ownership or compensation arrangement with an entity selected in the en­
tity survey. All services fora beneficiary so identified were included in the comparison group,

This form of analysis has two important implications that should be kept in mind when inter­
preting the results. First, this approach represents a conservative analysis. The comparison
group is not excluded from the control group and the comparison group is composed only of
beneficiaries identified through the entities included in the sample. Those beneficiaries of
physician owned entities not included in the sample are included in the control group but not
in the comparison group. An imponant effect of this type of construction is to reduce any ap­
parent difference found in utilization rates calculated for each group. Second, any differences
found should be interpreted as showing an association only between groups and utilization
rates. Causality cannot be established because the data lacks the information necessary to
detennine which physician prescribed the service billed on behalf of the beneficiary.
Tables B3 through B 12 present the results of the above analysis. For clinical laboratory ser­
vices and durable medical equipment services, four types of tables are given. Two tables give
utilization rates by carrier where the comparison group is composed of beneficiaries seen by
physicians with a known ownership interest in the entity tabled. One table uses all services,
regardless of source and the second uses only those services delivered in (or by) the entity. A
second set of two tables presents the same infonnation when the beneficiary was seen by a
physician with a compensation arrangement with the entity.

Only two tables are presented for services involving independent physiological laboratories,
that is, all services from all sources for beneficiaries of physicians who own (Table B 11) and
all services from all sources for beneficiaries of physicians with compensation arrangements
with IPLs (Table B  12). This is due to the fact that lack of direct billing by IPLs in 1987 did
not allow us to identify IPLs in the BMAD sample data.

Included in these tables is a column labeled " Ratio. " This is the ratio of the utilization rate for
the comparison group to that of the conttol group. The weighted average of this ratio, along
with the upper and lower bounds of the 90 percent confidence interval, are given at the bottom
of each table. This ratio gives the relative increase in the utilization rate of the comparison
group when compared to the corresponding control group. If the confidence interval includes
the value 1.00 then one should infer that, on the average, there is no difference in the utiliza­
tion rates between the two groups. Student s t-test is provided to test the statistical sig­
nificance of the differences between the utilization rates within each carrier. Large absolute
values of this test statistic would indicate that the observed differences are probably nOt due to
random chance.

Analysis of Utilization Comparison and Control Groups

Of particular concern for this utilization analysis is the OCCUITence of bias due to adverse selec­
tion of the comparison group of beneficiaries. This can occur either among the beneficiaries
or the physicians. By using only those beneficiaries with at least one service in the calculation
of the utilization rates, we have created homogenous groups, at least with respect to type and
quantity of services used. This provides some prOtection against bias due to beneficiaries.

As to the physicians, the only infonnation available in the BMAD data with which to test for
any bias is the carrier designated specialty of the physician. Because clinical laboratory ser­
vices shows the greatest increase in utilization due to physician ownership and compensation
this will be the focus of an examination of bias due to adverse physician selection. A criticism
of the utilization analysis with respect to clinical laboratory services, might be that physicians,
normally associated with high use of clinical laboratory services by vinue of their specialty,
are the majority of those physicians establishing ownership in independent clinical
laboratories. To test this, we looked at the distribution , by specialty, of the weighted propor­
tions of physicians in both the control
                                         J;;!o up and the comp~-ison group. The weighting is
across carriers. The following table gives the proportions of Medicare providers in five
categories. These categories represent a recoding of the specialty codes used by Medicare car­
riers (see appendix D).
           Weighted Distribution of Providers by Specialty and Ownership Status

                                    Clinical Laboratory Services

                  Provider Type                 Conttol       Comparison
                                                Group         Group
Physicians:
       Medical, Primary Care                     59.           50.
       Medical, Not Primary
                     11.2%         10.
       Surgeons
                                 18.           16.
       Others

Clinical Laboratory                                            10.
Other Entity
'T"- ,­
                                               01-
                                                1 fV\ (\
                                                              100.
lUldl                                           ..vv.v IV




This table shows a decrease in the proportion of primary care physicians, an expected increase
in the proportion of services delivered by Clinical laboratories and an increase in the propor­
tion of physicians in the ' Other ' category. If we look at the distribution of physicians only,
then the following table, again using weighted averages across carriers, is derived.

     Weighted Distribution by Specialty and Ownership Status, Physicians Only
                                    Clinical Laboratory Services

                   Provider Type                Conttol       Comparison
                                                Group         Group
Physicians:                                                    59.
            Medical, Primary Care
                64.
            Medical, Not Primary
                '12.           12.
            Surgeons
                             19.           19.
            Other


Total                                           100.          100.

This version of the table still shows the decrease in the proportion of primary care physicians
and the increase among the ' Other ' type of physicians. What is imponant in this comparison
is the fact that the ' Medical, Not Primary ' group of physicians contains those specialist most
likely to use clinical laboratory services according to conventional wisdom. The proponion of
this category in both groups is essentially equal. This would indicate that physicians normally
associated with higher use of clinical laboratory services are not overrepresented in the com­
 parison group.



 Because of referrals patterns inherent in medical care delivery and the lack of referring
 physician identification on bills in the BMAD data, it is not possible to detennine to what ex-
 tent this difference in proponions might contribute to the differences seen in utilization rates
 for clinical laboratory services. However, the analysis represented here would indicate that
 the difference in utilization rates among beneficiaries is not due to any over representation of
                 ~_-   .._                                   j:                         ~..."                                       ....-




physician providers associated with greater use of these services. Thus , any bias due to ad-
verse selection of physician providers would appear to be minimal.

Calculation of Payments

The calculation of payments associated with this report is given only for physician ownership
in the case of independent c1inicallaboratories. To do this we must estimate a savings based
on th.e element of selection , which for this study is the independent clinical laboratory. Thus it
is not possible to make such an estimate for independent physiological laboratories as our
selection was not from the BMAD data. Durable medical equipment suppliers showed no sig-
nificant effect due to physician ownership.

                                                                                 "'UU.."'......ll"
       .c_ 11___.   \...1- _ \...~...n ..\...~ ~..~ k~-                                             hA""'f""",;"", 11M""
'T't.-
 .lUI;; lVUVW.l1l5 LaU.lv   ;,uuw;, Ul~ UUIUU\.i.l U.l Ul\.....1~~~~  ....1~...~ ... l~...
                                                             .l"'1-""Uu."'UL                     ""'v,,"',"",,,,""" "' 1-""'"Hl"....-..
                                                                                                                                 h;"h thp

sampling was based, by carrier.

Carrier€                          Total Num.                      Number of ICLs Sampled                                     Prop.
                                  of ICLs                         Total  Unowned Owned                                       Owned

Arkansas BS                                                                                                                  25.
Florida BS                         141                                                                                       33.
Michigan BS                                                                                                                  20.
BS of Kansas City
BS of Greater NY                  102                                                                                         17.
Occidental Ca                     273                                                                                        30.
Travelers CT                                                                                                                 34.
Nationwide WVa                                                                                                               42.

U sing the BMAD data, we determined the total number of beneficiaries receiving services and
the total allowed amounts for all of the labs in the sample. This information is shown in the
following table. 

Carrier                           Number of Benes.                                  Total Allowed
                                  Unowned Owned                                   Unowned        Owned

Arkansas BS                            827            280                            110, 711         $ 60, 705
Florida BS                         16, 519            906                      $1, 075, 730           $ 395, 848
Michigan BS                        18, 629            180                          279, 873           $ 176     950
BS of Kansas City                      811            229                          300,417            $ 33, 303
BS of Greater NY                  23, 390             633                          134 536            $ 80 824
Occidental Ca                         860             364                          650,481            $ 136, 146
Travelers CT                      10, 355             152                          543,401            $ 148, 234
Nationwide WVa                        830             234                           43, 576                     864

U sing these two tables, it is possible to calculate a savings per independent c1inicallaboratory
and project this to the total estimated savings per carrier (the BMAD sample is a 5 percent
sample of beneficiaries). Since each carrier, and the subsampling therein , is independent of
another, a projection to the nation can be made for each carrier in the sample. The average of
these individual estimates represents a valid projection to the nation for the increase in al-
lowed amounts in 1987 that can be associated with physician ownership of independent c1ini-
/",\~~                                                 ... -,-'   -   , ,--




callahoratories. The following table shows costs of $28. 1 million due to increased utilization
associated with physician ownership of independent clinical laboratories. The 90 percent con-
fidence interval of this estimate has a lower limit of $13. 7 million and an upper limit of $42.4
million.

Carrier                  Sampling Est Costs             Est Costs             National
                         Fraction in Sample             Per carrier
          Estimate

Arkansas BS              1.0%      $10, 577                 211 , 545 $21, 154 509
Florida BS€              7.4%      $76, 365€           $ 3, 473, 385  $46,937, 637
Michigan BS€               0%'     $27, 177€                810, 713 $20,267, 833
BS of Kansas City€                 $19, 004€                380, 072 $47, 509, 056
BS of Greater NY€                  $ 1, 615€                 48, 441 $, 781, 309
     :,.I__._ l ('"'I"
V~"'lU"'HUU     vU         (\01-
                         V.V/V     q:~h M'"
                                   "'~V'vv~            It ~ ?7(, 4'1  $40; 955; 260
Travelers CT             1.3%       $35, 303                762, 091 $58, 622 375
Nationwide WVa                     ($ 3,422)                 68,433) ($11,405,495)

                                                      Average     $28, 102, 811
                         90% Confidence Interval      Lower Limit $13, 780, 546
                                                      Upper Limit $42,425, 075
                                        Table B1

                      Estimates of Rates of Physician Ownership€
                                                       N umber Percent of
Carrier           TOtal Num. Physicians   Active       Indicating Active with
                  Physicians Sampled Physicians        Relationship Relationship

Arkansas BS          173         493      396                       16.
Florida BS        39, 905        432      313                       20.4%
Michigan BS           840        420      278
BS of Kansas City     214        449      362
BS of Greater NY 38, 847         474      351
Occidental Ca     32, 432        482      391                       15.
Travelers CT          927        465      354                       13.
Nationwide WVa        549        446      245                       10.

                                          Weighted Average           11.8%



                                        Table B2€

           Estimates of Rates of Physician Compensation Arrangements
                                                       Number       Percent of
Carrier	          Total N urn.   Physicians Acnve      Indicating   Active with
                  Physicians     Sampled Physicians    Relationship Relationship

Arkansas BS          173         493      396                        12.4%

Florida BS        39,905         432                                 10.

Michigan BS       21, 840        420      278

BS of Kansas City     214        449      362

BS of Greater NY 38, 847         474      351

Occidental Ca     32,432         482      391

Travelers CT          927        465      354

Nationwide WVa        549        446      245


                                          Weighted Average
                                            Table B3

                         Comparisons based on Lab Services

                                   All Services

                            Physicians with Ownership

                                                 Beneficiaries of
Carrier                 All Beneficiaries        Physician- Owners

                                       Std                     Std
                               Avg     Err              Avg    Err    Ratio T- Test

Arkansas BS          11, 13~   5.3                196                 1.32       612
Florida BS           73, 270                     760    11.3          1.40   23. 985
Michigan B S         36, 289                    1,481   18.    0.51   1.87   16. 318
BS of Kansas City        403                     274                  1.56       207
BS of Greater NY     40, 320                     636           0.30   1.02      330
Occidental Ca        53, 018                     649    11.4          1.30      354
Travelers CT             236                      186   10.           1.70   11.387
Nationwide WVa           981                      220                 1.00      000

Weighted Averages                                                     1.45

                     90% Confidence Interval	           Lower Limit   1.28
                                                        Upper Limit   1.63

                                            Table B4

                         Comparisons based on Lab Services

                              Services from ICL Only

                            Physicians '-:lith Ownership

                                                 Beneficiaries of
Carrier                 All Beneficiaries        Physician- Owners

                                       Std                     Std
                               Avg     Err              Avg    Err    Ratio T- Test

Arkansas BS              332                     782                  1.42      600
Florida BS€          46, 332                     803                  1.35   18.418
Michigan BS€         22, 280   8.4               025    12.           1.52      209
BS of Kansas City€       396                      123   12.    1.06             326
BS of Greater NY€    25, 165                     455                            760
Occidental Ca€       39, 207                     092                  1.32      591
Travelers CT€        10, 121                     013                  1.55      589
Nationwide WVa          942    4.4                             0.41   1.05    0.454

Weighted Averages                                                     1.34

                     90% Confidence Interval            Lower Limit   1.04
                                                        Upper Limit   1.65
                          ("';....,                                      ...


                                                             Table B5
                                          Comparisons based on LAB Services
                                                     All Services
                                                 Physicians with Compensation
                                                                  Beneficiaries of
Carrier                                  All Beneficiaries        Phy wi Comp

                                                         Std                         Std
                                                         Err             AvO'
                                                                               /:I   EIT    Ratio T- Test

Arkansas BS                           11 , 135                    789                       1.28   5.423
Florida BS
                           73, 270                      114                      1.00     000
Michigan BS
                          36, 289                     740    12.         0.30   1.29     089
D~ ~
JJ~ v..+Vn~"n"
        ............"u." 
 '"'UJ
        A(\~
                                       v,~v-,     5.5              178                      1,55     214
BS of Greater NY
                     40, 320                             8.4               1.29     182
Occidental Ca
                        53, 018                     426    11.1               1.26    060
Travelers CT                              236                            10.         1.15   1.59     211
Nationwide WVa                           981                       176                      1.17   1.414

Weighted Averages                                                                           1.32

                                      90% Confidence Interval	           Lower Limit        1.21
                                                                         Upper Limit        1.43



                                                             Table 86
                                           Comparisons based on LAB Services
                                                Services'from ICL Only
                                                 Physicians with Compensation
                                                                  Beneficiaries of
Carrier                                  All Beneficiaries        Phy wi Comp

                                                         Std                         Std
                                                   Avg   Err             Avg         Err    Ratio T- Test

Arkansas BS                               332                      545                              11.289
Florida BS                            46, 332                                               1.03       344
Michigan BS                           22, 280      8.4             110                      1.06       776
BS of Kansas City                         396                                        1.29   1.38     1.391
 BS of Greater NY                     25, 165                                               1.38       196
 Occidental Ca                        39, 207                      280    10.               1.54       931
 Travelers CT                         10, 121                                        1.08   1.49     2.493
 Nationwide WVa                           942                                               1.33       030

 Weighted Averages€                                                                         1.00

                                      90% Confidence Interval            Lower Limit
                                                                         Upper Limit        1.18
                     ....                                                                             ....




                                                Table B7

                            Comparisons based on DME Services

                                          All Services

                                   Physicians with Ownership

                                                         Beneficiaries of
Carrier                     All Beneficiaries            Physician- Owners

                                             Std                           Std
                                    A ---

                                   i'\.vg    EIT                 Avg       Eli         Ratio T- Test

Arkansas BS          345'                               132                1.01        1.31           1.826
Florida BS          7,434                               522                0.35        1.16           2.490
Michigan BS           942          7.3                                     1.57                         627
                                   .c t::       ..,.c    J: J:             f\   "7     f\    "::':1   '10"'::
BS or Kansas City     II                        .JU      J.J      "'t. ~        /"'t         v")        J J.U

BS of Greater NY      703                                                  1.43        1.53           1.808
Occidental Ca       5,479          6.4                  247                            1.02             162
Travelers CT          914                                        13.                   1.52                  589
Nationwide WVa        653                                                  1.03                              132

Weighted Averages                  6.4                            6.4                   1.00

                    90% Confidence Interval                      Lower Limit
                                                                 Upper Limit            1.21

                                                Table 88

                             Comparisons based on DME Services
                               Services from  DME Supplier Only
                                   Physicians with Ownership
                                                         Beneficiaries of
Carrier                     All Beneficiaries            Physician- Owners

                                             Std                           Std
                                   Avg       Err                 Avg       Err         Ratio T- Test

Arkansas BS           343                               132                 1.01        1.31          1.826
Florida BS            378                               521         6 0.                1.14                 214
Michigan BS           931          7.4                                   1.57                                690
BS of Kansas City     773                                            1 0.                                    916
BS of Greater NY      671                                                1.46           1.49          1.635
Occidental Ca          169                              230          1 0.                               647
Travelers CT          866                                        14. 1, 8.                  1.64        630
Nationwide WVa        625                                           0 0.                                     542

Weighted Averages                   6.4                           6.4                       1.00

                    90% Confidence Interval                      Lower Limit
                                                                 Upper Limit                1.22
                                                         . ,...





                                            Table B9

                        Comparisons based on DME Services

                                   All Services

                          Physicians with Compensation

                                                 Beneficiaries of
Carrier                All Beneficiaries         Phy wi Comp

                                      Std                          Std
                               Avg    Err               Avg        Err        Ratio T- Test

Arkansas BS           345                                          2.43       1.16     0.409
Florida BS
          7,434                                         1.10       1.18       906
Michigan BS
           942                                                             1.210
                                                                   1 ~n        .c...      1::'1 A
BS of Kansas City
     776            0.36              "f..       J.. oJ:1            1.. .J.J""

BS of Greater NY
      703
Occidental Ca
       5,479     6.4
Travelers CT
          914
Nationwide WVa        653                                          1.03       1.13       742

Weighted Averages              6.3                                            1.05

                     90% Confidence Interval	           Lower Limit
                                                        Upper Limit           1.36

                                        Table B1 0


                        Comparisons based on DME Services
                         Services from DME Suppliers Only
                             Physicians wlth Compensation
                                                 Beneficiaries of
Carrier                 All Beneficiaries        Phyw/Comp

                                       Std                         Std
                               Avg     Err               Avg       Err        Ratio T- Test

Arkansas BS            343                                         2.43       1.16     0.409
Florida BS
            378                                         1.14       1.19       962
Michigan BS
           931     7.4                                                      1.257
BS of Kansas City
     773                                         1.59                 1.534
BS of Greater NY
      671
Occidental Ca
         169
Travelers CT
          866
Nationwide WVa         625                                          1.07      1.13        714

Weighted Averages              6.4                                            1.07

                     90% Confidence Limit                Lower Limit
                                                         Upper Limit           1.38
                                              Table B11

                          Comparisons based on IPL Services€
                                    All Services€
                             Physicians with Ownership€
                                                           Beneficiaries of€
Carriers€               All Beneficiaries                  Physician- Owners€

                                             Std                         Std
                                    Avg      Err                  Avg    Err    Ratio T- Test

Arkansas BS              8~0         1.4                                 0.41   1.50    1.705
Florida BS€              292         1.7                  181     1.9           1.12      209
Michigan BS€          10, 808        1.7                  183                   1.18      985
BS of Kansas City€       564         1.5                          1.5           1.00     000
BS of Greater NY€      8,417         1.6                                        1.25     850
Occidental Ca€           741         1.5                  712     1.7           1.13     851
Travelers CT€            674         1.5                                 0.33   1.80     635
Nationwide WVa           556         1.5                          1.5           1.00     000

Weighted Averages                    1.5                          1.7           1.13

                      90% Confidence Interval                     Lower Limit
                                                                  Upper Limit   1.29

                                              Table B12

                           Comparisons based on IPL Services€
                                     All Services€
                                Physicians         w~th   Compensation€
                                                           Beneficiaries of€
Carrier€                 All Beneficiaries                 Phy wi Comp€

                                             Std                         Std
                                     Avg     Err                  Avg    Err    Ratio T- Test

Arkansas BS               880         1.4                                       1.86       724
Florida BS€               292         1.7                  361    1.6                    1.961
Michigan BS€          10, 808         1.7                  082    1.8           1.06       162
BS of Kansas City         564         1.5                   134   1.9           1.27       288
BS of Greater NY€         417         1.6                         1.9           1.19     1.427
Occidental Ca€            741         1.5                  518    1.8           1.20       883
Travelers CT€             674         1.5                         1.6           1.07       587
Nationwide WVa            556         1.5.                        1.7           1.13     1.789

 Weighted Averages€                    1.5                         1.8          1.18

                      90% Confidence Interval                     Lower Limit   1.01€
                                                                  Upper Limit   1.34
                                     APPENDIX C




HCFA COMMON PROCEDURE CODING SYSTEM (HCPCS)
               Codes used to define Independent Physiological Labs.

      70450           71250         71550          72125         72140
      72192           72196         73200          73220         73700
      73720           74150         74181          76070         76700
      78000           78001         78003          78007         78010
      78015           7~O16         78102          78103         78104
      78170           78186         78202          78215         78216
      78282           78290         78300          78305         78306
      78310           78445         78600          78606         93258
      93259           93262         93263          93266         93268
      93269           93270         93720          93721         93722
      93740           93850         93860          93870         93890
      93910           93950         93960          M0520         M0525
      M0526           M0530         M0535          M0560         M0570
      M0575           MO580         M0585          M0590         M0592

Codes used to define Magnetic Resonance Imaging Services.
These Services are included in the definition of IPLs.

       70540          70550          70551         70552          72141
       72142          72143          72144,        73221          73721
       75552          76400
                              APPENDIX D€


RECODING OF CARRIER PROVIDER SPECIALTY

Category Created      Carrier Specialty Codes Included

Physician, Medicai    General Practice
Primary Care          Family Practice
                      Internal Medicine
                      Pediatrics
                      Geriatrics

Physician, Medical,   Allergy€
Other than Primary    Cardiovascular Disease€
                      Dennatology€
                      Gasttoenterology€
                      Neurology€
                      Physical Medicine and Rehabilitation€
                      Psychiatry€
                      Pulmonary Disease€
                      Radiology
                      Nuclear Medicine
                      Nephrology

Physician, Surgeon    General Surgery
                      Oncology, Laryngology, Rhinology
                      Neurological Surgery
                      OB - Gynecology
                      Ophthalmology
                      Orthopedic Surgery€
                      Plastic Surgery
                      Proctology
                      Thoracic Surgery€
                      Urology
                      Hand Surgery
                      Podiatry - Surgical Chiropody

Other Physician       Anesthesiology
                      Gynecology (Osteopaths only)
                      Manipulative Therapy (Osteopaths only)
                      Obstemcs (Osteopaths only)€
                       Ophthalmology, Otology, Laryngology, Rhinology (Osteopaths    only)€

                        Oial Surgery (Dentists only)€
                        Pathologic Anatomy; Clinical Pathology (Osteopaths only)€
                        Pathology€
                        Peripheral Vascular Diseases or Surgery (Osteopaths only)€
                        Psychiatry, Neurology (Osteopaths only)
                        Roentgenology, Radiology (Osteopaths only)
                        Radiation Therapy (Osteopaths only)
                      , Chiropractor, Licensed
                        Optometrist
Category Created       Carrier Specialty Codes Included

Other Physician        Miscellaneous
(cont.)

Clinical Laboratory
   Independent Laboratory (Billing independently)

Other Entities         Medical supply company with C.

                       Medical supply company with C.

                       Medical supply company with C.

                       Medical supply company not included above

                       Individual CO

                       Indi vidual CP
                       lndi vidual CPO
                       Individuals not included in 55 , 56, 57
                       Ambulance service supplier, e. g., private
                       Public Health or Welfare Agencies
                       Voluntary Health or Charitable Agencies
                       Psychologist (Billing independently)

                       Portable X-ray Supplier (Billing independently)

                       Audiologists (Billing independently)
                       Physical Therapist (Billing independently)
                       Clinic or other group practices
                       All other, e. g., Drug and Department Store

                       Unknown

                       Unknown

                                     APPENDIX E€

ADDITIONAL CONTRIBUTORS TO THE REPORT

                   Office of Analysis and Inspections
Headquaners                New York                   Chicago

Brian Ritchie€             Dawn McDonald€             Phillip Onofrio
Jennifer Cryor             Tracey Kennedy             Margaret Shell
                           Bill Counihan              Pamela May
                                                      Aquilla Box
Philadelphia               San Francisco              Atlanta

Joe Goodyear               Neil Merino                Jim Wilson
Nancy Molyneaux            Mollyann Brodie
                           Roben Gibbons
                           CoITinne M. Harol

                            Office of Audit
Headquaners                Boston                     New York

George Reeb                William Hornby             Raymond 1. Yak
John Hapchuk               Herve Guerette             James P. Edert
Janet Rankin               Hank Vanderbeek            Romula Capisttano
Rose Hatten€               Steve Conway               Roben Huot€
                           Robert Champagne           Margaret Wallace


Philadelphia               Atlanta                      Chicago

James Maiorano             Gerald Dunhan              Paul Swanson
Joanne Jackson             Bernard Rach               Allen Peters
Joseph Cardamone                                      Tammie Anderson
                                                      Robert Templeton
                                                      Dennis Hannan

Dallas                     Kansas City                  San Francisco

Joseph Smith               Dennis Dewitt                Gordon Fickel
c.B. Goff                  John Harrington              Gerald McGee
                           Gary Gunter                  Anna Greenhalgh
                                                        Ton Son Lam
                                                        Akop Baltayan
                                                        Paul Scott
                                                        Michael Montgomery

                             Office of General Counsel
                             Elizabeth Weiss, Thomas Crane
